i-

APPENEDIX A 09/11/2020 OSC Decision That Is the Subject of This Writ

/
I

®je Supreme Court of (©lju

SP 1 1 2020

M*K OF'COURT

LMMuaKeiiOHio
In re Disqualification of Hon. Tonya Jones and
Leslie Celebrezze

Supreme Court Case No. 20-AP-075
JUDGMENT ENTRY AND DECISION

On Affidavit of Disqualification in Jill Lasheen v. Wael Lasheen, Cuyahoga
County Court of Common Pleas, Domestic Relations Division,
Case No. DR-19-379428.
On August 19,2020, defendant Wael Lasheen filed an affidavit of disqualification pursuant
to R.C. 2701.03 in case No. 2Q-AP-068 seeking to disqualify Judge Rosemary Grdina Gold from
the above-referenced divorce case. On September 1, Judge Gold voluntarily recused herself from
the matter, and on September 4, the affidavit of disqualification was dismissed as moot. On the
same day, Judge Leslie Ann Celebrezze, the administrative judge of the Cuyahoga County
Domestic Relations Court, assigned the case to Judge Tonya R. Jones.
On September 10, Mr. Lasheen filed another affidavit of disqualification pursuant to R.C.
2701.03. He now seeks to disqualify Judge Jones from the divorce case and Judge Celebrezze
from performing her duties as administrative judge. Mr. Lasheen appears to believe that Judge
Gold lacked authority to recuse herself from the divorce case during the pendency of his first
affidavit of disqualification and that Judge Celebrezze committed judicial misconduct and
exhibited bias by assigning the ease to Judge Jones before the chiefjustice had formally dismissed
Mr. Lasheen’s first affidavit against Judge Gold.
Contrary to Mr. Lasheen’s contention, Judge Gold had authority to voluntarily recuse
herself from the divorce case prior to a ruling on his affidavit of disqualification. Further, Judge

;

Celebrezze is not assigned to the underlying divorce case, and R.C. 2701.03 does not authorize a
’V

litigant to disqualify a court’s administrative judge from performing his or her duties. Finally, Mr.
Lasheen s affidavit fails to include any specific allegations of bias against Judge Jones—the judge
assigned to his case—and therefore he has failed to meet the requirements of R.C. 2701.03(B)(1)
(requiring an affidavit to include the “specific allegations on which the claim of interest, bias,
prejudice, or disqualification is based and the facts to support each of those allegations”); In re
Disqualification of Milrovich, 101 Ohio St.3d 121, 2003-OMo-7358, 803 N.E.2d 816, f 4 (“An
affidavit must describe with specificity and particularity those facts alleged to support the claim of
bias or prejudice”).
The affidavit of disqualification is denied. The case may proceed before Judge Jones.
Dated this,! 1th day of September, 2020.

mjuAjllh.

MAUREEN O’CONNOR
Chief Justice

Copies to:

Sandra H. Grosko, Clerk of the Supreme Court
Hon. Tonya Renee Jones,
Hon. Leslie Ann Celebrezze, Administrative Judge
Nailah K. Byrd, Clerk
Wael Lasheen
Grace Miclot
Barbara Roman

2

*

APPENEDIX B Prior Affidavit of Disqualification

\

DR 19379428

114244859
..___/

¥

IS

AUG 10 2020

Inmrt of Oql]t0CLERK OF COURT
m

i

U

2U P 3'- 01

SUPREME COURT OF OHIO

c;jt/

In re Disqualification of Hon. Rosemary Grdina
Gold

Case No. 20-AP-068
ENTRY

ORIGINAL
COURT USE ONLV

AUG 2 4 2020

■ssssrsss'

ON AFFIDAVIT OF DISQUALIFICATION in
Jill Lasheen v. Wael Lasheen, Cuyahoga
| County Court of Common Pleas, Domestic
;<
Relations Division, Case No. DR-19-378428

Pursuant to R.C. 2701.03(C)(1)(b), notice is hereby given to the clerk of the
Cuyahoga County Court of Common Pleas, Domestic Relations Division, that on August
19, 2020, the Clerk of the Supreme Court accepted for filing an affidavit seeking to
disqualify Judge Rosemary Grdina Gold from the following matter: Jill Lasheen v. Wael
Lasheen, Cuyahoga County Court of Common Pleas, Domestic Relations Division, Case
No. DR-19-378428.
R.C. 2701.03(C)(1)(c) requires that upon receipt of this notice, the clerk shall enter
the fact of the filing of the affidavit on the docket of the proceeding pending in the
Cuyahoga County Court of Common Pleas, Domestic Relations Division.

Maureen O’Connor
Chief Justice

^>wpxtmt (Eaurt

01 )ljt0 aug i 0 2020
CLERK OF COURT
SUPREME COURT OF OHIO

In re Disqualification of Hon. Rosemary Grdina
Gold

Case No. 20-AP-068
ENTRY

ON AFFIDAVIT OF DISQUALIFICATION in
Jill Lasheen v. Wael Lasheen, Cuyahoga
County Court of Common Pleas, Domestic
Relations Division, Case No. DR-19-378428

Pursuant to R.C. 2701.03 and S.Ct.Prac.R. 21.01 through 21.04, the Clerk of the
Supreme Court accepted for filing an affidavit seeking to disqualify Judge Rosemary
Grdina Gold from the following matter: Jill Lasheen v. Wael Lasheen, Cuyahoga County
Court of Common Pleas, Domestic Relations Division, Case No. DR-19-378428.
Except as provided in R.C. 2701.03(D)(2) through (4), Judge Grdina Gold is
deprived of any authority to preside in the proceeding until the Chief Justice rules on the
affidavit. Judge Grdina Gold is requested to file a response to the affidavit in accordance
with S.Ct.Prac.R. 21.01 and 21.02 within 21 days of the date of this entry. The judge may
submit the response in letter, pleading, or affidavit format. Upon receipt of the judge’s
response, the Chief Justice will review the matter and render a written decision on the
affidavit.
Affidavit-of-disqualification files are public records, and unless sealed or
confidential, a copy of any materials in the files will be provided to any person who so
requests.

Maureen O’Connor
Chief Justice

<n.

UINTED STATES OHIO SUPREME COURT
AFFIDAVIT OF DISQUALIFICATION

JILL LASHEEN
PLAINTIFF
20422 ALMAR DR
SHAKER HEIGHTS, OH 44122

:

IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
CASE NO. DR19379428

BARBARA K. ROMAN (0014607)
GRACE MICLOT (0095345)
Attorneys for Plaintiff
Meyers, Roman, Friedberg & Lewis
28601 Chagrin Boulevard, Suite 600
Cleveland, Ohio 44122
Tel:
(216)831-0042
Fax: (216)831-0542
Email: broman@meyersroman.com
gmiclot@meyersroman.com

JUDGE: ROSEMARY GRDINA GOLD
Date of The Next Scheduled Hearing:
08/27/2020

vs.

,v-d

WAELLASHEEN PROSE
DEFENDANT
PO BOX 20 2555
SHAKER HEIGHTS, OH 44120

Tel:

V

(216) 414-8759

FOILI®

Email: WAELLASHEENl@PROTONMAIL.COM

AUG 19 2020

CLERK OF COURT
SUPREME COURT OF OHIO

l
(s) Wael Lasheen

I

The Defendant (Affiant) WAEL LASHEEN hereby moves the US OHIO SUPREME COURT to
disqualify the Honorable Judge ROSEMARY GRDINA GOLD (Judge Gold) from presiding over
CASE NO. PR19379428 In The Court Of Common Pleas Division Of Domestic Relations
Cuyahoga County, Ohio, because of Bias and Prejudice. I move the court to halt all proceeding
in the case and transfer the case to another court.
FACTUAL BACKGROUND
The Plaintiff filed for divorce on 12/03/2019 (Exhibit 1: CASE DOCKET). The Plaintiff filed a
temporary restraining order and a domestic violence case on 04/12/2020 after an incident
where the Defendant was disciplining his daughter, and where by 911 was called but no police
report generated; only a "service call statement" (Exhiblt2: Police Statement). An Agreement
was reached on 04/23/2020 through the respective attorneys (Exhibit3: Agreement). Defendant
dismissed his attorney because he could no longer afford them and because the attorney did
not disclose that this agreement will impact child custody in the future; this was journalized on
06/12/2020. A pretrial hearing (First Hearing) was scheduled for 05/11/2020. A pretrial hearing
(Second Hearing) scheduled for 06/08/2020 was cancelled without notice to the Defendant or
his Attorney of record (Exhibits Attorney's Email). A pretrial hearing (Third Hearing) took place
on 06/29/2020. The Third hearing was interrupted by Judge Gold's unstable internet
connection, and the hearing was rescheduled for 07/02/2020 (Fourth Hearing).

2
(s) Wael Lasheen

EVIDENCE/LAW
1. The Honorable Judge Gold has a reputation of sexism and activism among attorneys.
After being served with the lawsuit the Defendant visited several attorneys and on
revealing the name of the presiding judge some declined their services while others
requested double the cash advance of what is customary in such cases. Eventually an
attorney warned of the Judge's reputation "the Judge pressure attorneys too much".
That became evident, when the attorney who was eventually hired refused to file any
motion or even request for discovery, standard procedure in divorce cases, throughout
six months of representation (Exhibit 1: CASE DOCKET).
2. Unlike other judges, Judge Gold does not provide recordings or transcripts of hearings to
the Court Reporting Department as required by law of a court of record. The reporting
department denied possession of any recording, transcripts, or record required for an
appeal filed by the Defendant on 06/24/2020, and thereafter.
3. During the Third Hearing on 6/29/2020 Judge Gold was aggressive, threatening,
demeaning, and intimidating. Judge Gold declared her displeasure at self-representation
and would not allow the Defendant to challenge the opposing counsel.
During an exchange about marital debt:
•

Plaintiffs Counsel "he claims a marital debt of about 18,000"

•

Judge "What about that”

•

Defendant "Yes, I took loans from family for about 18,000"

•

Judge "If it is from family then it is a personal loan"

3
(s) Wael Lasheen

•

Defendant "how it can be a personal loan when I have evidence that I spent it on
rent, food, and house supplies?"

•

Judge "do you have documentation?"

•

Defendant "Yes I have western union slips with the names of my Mother and
sister, my family is overseas! And I sent copies to the opposing counsel"

•

Plaintiffs counsel "Yes I have them your honor"

•

Judge "No, do you have a document that says you owe money"

•

Defendant "I can get such a document"

•

Judge "Will it have a recent date?

•

Judge "if you predate it, I will charge you with fraud"

Judge Gold has prejudged the case from the mere fact that the loan was owed to family.
albeit now amicable to view documents that the Defendant might present. A judge is
not entitled to draw an opinion based on the proceedings. See Harrison Franklin v.
McCaughtry, 398 F.3d 95S (7th Cir. 2005). Indeed, Judge Gold has displayed deep-seated
and unequivocal antagonism that would make fair judgment impossible.
4. The Third Hearing was cut short, consequently the Defendant was contacted by Lucy
DeLeon, Bailiff, to resume pretrial (Exhibit5: Bailiffs Email) on 07/02/2020, the Fourth
Hearing. During the Fourth Hearing the attitude changed into a more conciliatory tone,
however prejudice remained. In violation of the law no notice of the pretrial's new
agenda was served in advance electronic or otherwise, the judge had decided to rule on
a Motion submitted by the Defendant on 06/29/2020 (see Exhibitl Case Docket).
Assuming that journalization in the case docket is notice, a reasonable period is required
4
(s) Wael lasheen

by law. A Notice is "An elementary and fundamental requirement of due process in any
proceeding which is to be accorded finality is notice reasonably calculated, under all the
circumstances, to apprise interested parties of the pendency of the action and afford
them an opportunity to present their objections. See Mullane v. Central Hanover Bank &
Trust Co., 339 U.S. 306,314 (1950). See also Richards v. Jefferson County, 517 U.S. 793
(1996). In addition, notice must be sufficient to enable the recipient to determine what
is being proposed and what he must do to prevent the deprivation of his interest. See
Goldberg v. Kelly, 397 U.S. 254, 267-68 (1970). Thus, the notice of hearing and the
opportunity to be heard must be granted at a meaningful time and in a meaningful
manner. See Armstrong v. Manzo, 380 U.S. 54S, 552 (1965)." These actions undermine
the defendant's rights to due process and reflects a greater pattern of bias and
prejudice.
5. The Judge scheduled a pretrial hearing on 7/28/2020 for 8/27/2020 for "Motion to
Dismiss Agreement" (Exhibitl CASE DOCKET). However, in a separate judgement entry
(Exhibits: Judgement Entry) Judge Gold refuses to treat the motion as a request to
terminate the agreement and instead labels it as a motion to show cause, as the
Plaintiffs Counsel suggested during the hearing. The circumstance regarding this motion
and the failure of the court to make proper notice is discussed in more details in the
section 4.
6. Judge Gold has scheduled a hearing on 8/27/2020 for "Motion to Dismiss Agreement"
(Exhibitl CASE DOCKET). Judge Gold insists on wrongly relabeling, prejudging, and
considering that a resolution to this motion has been reached (Exhibit6 Judgement

5
(s) Wael Lasheen

Entry). This renders the Judge biased and any hope of a fair hearing let alone fair
judgment impossible. Considering the Judge Gold's conviction that this motion is
resolved It is safe to assume that reason for scheduling this hearing is to intimidate the
Defendant into withdrawing the motion and denying his due process.
7. It is worthwhile to mention that the Plaintiffs Counsel seem to wield great influence
over the court. The Defendant submitted a motion to release EX PARTE communication,
that was stricken from the record (Exhibits: Judgement Entry). Judge requires
explanation or support for this motion. Court Rule 6 states "No attorney or party shall
discuss the merits of any case either orally or in writing, with any judge or magistrate
presiding over the matter without all legal counsel of record or self-represented parties
participating in the discussion". It is established law and code of Judicial Conduct that all
parties be informed of all and any ex parte communication. It is the Judge who needs to
present an explanation for withholding ex parte communication, provided that the
Judge will submit an accurate recount of ALL communication.
8. The Defendant submitted a motion to request a conflict of interest statement from the
director of family evaluation services. I had spoken to her over the phone, she was very
condescending and seemed to know details which can not be gleaned from records
readily available online. It was safe to assume that she was contacted with either the
Judge or the Plaintiffs Counsel in which case she would not perform/supervise an
impartial service.
9. During communication with Judge's Bailiff and Scheduler I found them unresponsive.
and any communication seemed to be readily transmitted to the Plaintiffs Counsel.

6
(s) Wael lasheen

CONCLUSION
28U.S. Code § 455 embodies an objective standard. The test is whether an objective,
disinterested, lay observer fully informed of the facts underlying the grounds on which recusal
was sought would entertain a significant doubt about the judge's impartiality. In this case, the
"appearance of partiality" is apparent to a reasonable person. From lack of hearing transcripts,
prejudging the case, improper hearing notice, threats and intimidation, concealing ex parte
communication and denying due process. All these factors cause the Defendant, and would
cause a casual observer, to reasonably question the partiality of the Court. This motion should
be granted.

7
(s) Wael Lasheen

Respectfully Submitted,

Sworn to, or affirmed, and subscribed in my presence this

day of

~)sTT2020.

Signature

WAEL LASHEEN PRO SE
DEFENDANT
PO BOX 20 255S
SHAKER HEIGHTS. OH 44120
Tel: 216 414 8759
Email: WAELLASHEENl@PROTONMIAL.COM
^ ««"0NMCSUlE1f

•i^sasfiS*] "^Prtiit.Siaisucwo
•• “■ ““ ■ '

(S) Wael Lasheen

8

My Corcminion Expires
N«Mal>*f24.2C!0

CERHCATE OF SERVICE

Please take notice that this affidavit was served via certified mail, on the 08/19/2020 to the following:
GRACE MICLOT

Attorney for Plaintiff
Meyers, Roman, Friedberg & Lewis
28601 Chagrin Boulevard, Suite 600
Cleveland, Ohio 44122
Tel: (216)831-0042

JUDGE ROSEMARY GRDINA GOLD

Cuyahoga County Court of Common Pleas
Division of Domestic Relations
1W. Lakeside Avenue, 3rd Floor
Cleveland, OH 44113-1083

9
(s) Wael Lasheen

Exhibitl

»

Print

CASE INFORMATION
Docket Information
Filing Date Side Type Description
08/14/20
N/AJE ITIS ORDERED THAT DEFT MOTION TO STAY FAMILY EVALUATION (#
434093) IS DENIED. IT IS FURTHER ORDERED THAT DEFT MOTION TO
REQUEST CONFLICT OF INTEREST STATEMENTS! #434312) AND MOTION TO
RELEASE EX PARTE COMMUNICATION #4343!4)ARE STRICKEN... O.SJ.
NOTICE ISSUED
08/13/20
D1 NT NOTICE OF SERVICE OF DISCOVERY FILED D1 WAEL LASHEEN, ATTORNEY
PRO SE 9999999 NOTICE OF SERVICE OF DISCOVERY ANSWERS TO
PLAINTIFFS REQUEST FOR PRODUCTION OF DOCUMENTS AND
INTERROGATORIES
N/ASR MOTION(S) ADDED TO HEARING, NOTICE(S) SENT
08/12/20
08/11/20
D1 MO MOTION TO/FORD I WAEL LASHEEN
08/11/20
D1 MO MOTION TO/FORD I WAEL LASHEEN CONFLICT OF INTEREST
08/04/20
08/04/20

08/03/20
08/03/20
08/03/20
08/03/20
08/03/20
08/03/20
08/03/20
08/03/20

07/31/20
07/29/20
07/29/20
07/29/20

PI SR JUDGMENT ENTRY(42244788) SENT BY REGULAR MAIL SERVICE. TO: JILL
LASHEEN 20422 ALMAR DRIVE SHAKER HEIGHTS. OH 44122
PI NT NOTICE OF SERVICE OF DISCOVERY FILED PI JILL LASHEEN NOTICE OF
SERVICE OF PLAINTIFFS RESPONSES TO DEFENDANTS REQUEST FOR
PRODUCTION OF DOCUMENTS AND PLAINTIFFS ANSWERS TO
DEFENDANTS FIRST SET OF INTERROGATORIES PRROPOUNDED ON
PLAINTIFF
D1 MO MOTION TO STAY ORDER D1 WAEL LASHEEN MOTION TO STAY FAMILY
EVALUATION
D1 MO D1 WAEL LASHEEN MOTION TO COMPEL DISCOVERY PROSE 9999999, AFA
MOTION FOR ORDER COMPELLING DISCOVERY
DI SR JUDGMENT ENTRY(42244787) SENT BY EMAIL. TO: WAEL LASHEEN
WAELLASHEEN1@PROTONMAIL.COM
PI SR JUDGMENT ENTRY(42244786) SENT BY EMAIL. TO: GRACE MARIE M1CLOT
JRAY@MEYERSROMAN.COM
PI SR JUDGMENT ENTRY(42244785) SENT BY EMAIL. TO: GRACE MARIE MICLOT
GMICLOT@MEYERSROMAN.COM
N/A SR JUDGMENT ENTRY(42244784) SENT BY EMAIL. TO: BARBARA K ROMAN
JRAY@MEYERSROMAN.COM
N/ASR JUDGMENT ENTRY(42244783) SENT BY EMAIL. TO: BARBARA K ROMAN
BROMAN@MEYERSROMAN.COM
N/AJE ORDER FAMILY EVALUATION. ITIS ORDERED THAT THIS MATTER BE
REFERRED TO THE COURTS FAMILY EVALUATION SERVICESFOR A
FORENSIC EVALUATION PURSUANT TO RC. 3109.04(C) AND THE LOCAL
RULES OF THE COURT OF COMMON PLEAS OF CUYAHOGA COUNTY,
DOMESTIC RELATIONS DIVISION AS TO: ALLOCATION OF PARENTAL RIGHTS
AND RESPONSIBILITIES. IT IS SO ORDERED. O.SJ. NOTICE ISSUED
Dl NT NOTICE OF SERVICE OF ANSWERS TO DEFENDANTS REQUEST FILED
NOTICE OF SERVICE
N/ASR HEARING SCHEDULED, NOTICE(S) SENT
N/ASR HEARING SCHEDULED, NOTICE(S) SENT
N/ASR HEARING SCHEDULED, NOTICE(S) SENT

Image

07/29/20
07/28/20
07/28/20
07/01/20
07/01/20
06/30/20
06/29/20
06/26/20
06/26/20
06/19/20
06/19/20
06/18/20
06/12/20
05/28/20
05/27/20
05/12/20
05/12/20
04/23/20

03/06/20

02/28/20
02/19/20
02/19/20
02/13/20
02/13/20
02/13/20

02/13/20
01/29/20
01/22/20

N/ASR HEARING SCHEDULED, NOTICE(S) SENT
N/ASC PRETRIAL SET FOR 11/18/2020 AT 10:00 BEFORE JUDGE ROSEMARY GRDINA
GOLD.
N/A SC PRETRIAL SET FOR 08/27/2020 AT 10:30 BEFORE JUDGE ROSEMARY GRDINA
GOLD. MO.# 433196 FILED ON 06/29/2020 MOTION TO DISMISS AGREEMENT
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SC PRETRIAL SET FOR 07/02/2020 AT 09:30 IN CRTRM 1A BEFORE JUDGE
ROSEMARY GRDINA GOLD. MO.# 433196 FILED ON 06/29/2020 MOTION TO
DISMISS AGREEMENT
D1 MO MOTION TO/FOR D1 WAEL LASHEEN MOTION TO DISMISS AGREEMENT
D1 MO MOTION TO/FOR D1 WAEL LASHEEN DEFENDANTS FIRST SET OF
INTERROGATORIES PROPOUNDED UPON PLANTIFF 6-26-20
D1 MO MOTION FOR DISCOVERY SANCTIONS FILED D) WAEL LASHEEN
DEFENDANTS REQUEST FOR PRODUCTION OF DOCUMENTS 6-26-20
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/ASR HEARING SCHEDULED, NOTICE(S) SENT
N/A SC PRETRIAL SET FOR 06/29/2020 AT 02:00 IN CRTRM 1A BEFORE JUDGE
ROSEMARY GRDINA GOLD.
N/A JE IT IS ORDERED THAT LISA KRAMER'S MOTION TO WITHDRAW AS ATTORNEY
OF RECORD IS GRANTED O.S J. NOTICE ISSUED
D1 MO D1 WAEL LASHEEN MOTION TO WITHDRAW AS ATTORNEY OF RECORD
N/A SC HEARING SET FOR 06/08/2020 AT 11:00 IN CRTRM 1A BEFORE JUDGE
ROSEMARY GRDINA GOLD HAS BEEN CANCELED.
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SC PENDING ISSUES SET FOR 06/08/2020 AT 11:00 IN CRTRM 1A BEFORE JUDGE
ROSEMARY GRDINA GOLD.
N/A JE AGREED JUDGMENT ENTRY PLAINTIFF AND DEFENDANT, BY AND
THROUGH THEIR UNDERSIGNED COUNSEL HAVE ENTERED INTO THE
BELOW AGREEMENT AS IT RELATES TO INTERIM ISSUED COMMENCING
APRIL 12, 2020 EXCEPT AS OTHERWISE SET FORTH HEREIN. THE COURT
HEREBY ADOPTS THE PARTIES AGREEMENT. IT IS ORDERED, THAT ALL
REMAINING ORDERS NOT MODIFIED HEREIN SHALL REMAIN IN FULL
FORCE AND EFFECT. O. S. J. NOTICE ISSUED
PI NT NOTICE OF SERVICE OF DISCOVERY FILED PI JILL LASHEEN NOTICE OF
SERVICE OF PLAINTIFFS REQUEST FOR PRODUCTION OF DOCUMENTS
PROPOUNDED UPON DEFENDANT AND PLAINTIFFS FIRST SET OF
INTERROGATORIES PROPOUNDED ON DEFENDANT
D1 OT D1 WAEL LASHEEN CERTIFICATE OF ATTENDANCE-PARENTING SEMINAR
N/A JE AGREED JUDGMENT ENTRY RE: ENGAGING IN COUNSELING FOR THE
CHILDREN... COSTS ADJUDGED AGAINST PASSED TO FINAL HEARING O. S. J.
NOTICE ISSUED
PI NT PARENTING CERTIFICATE FILED PI JILL LASHEEN NOTICE OF ATTENDANCE
AT PARENTING SEMINAR
N/A SR HEARING SCHEDULED, NOTlCE(S) SENT
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SC PRETRIAL SET FOR 05/11/2020 AT 11:00 IN CRTRM IA BEFORE JUDGE
ROSEMARY GRDINA GOLD.
N/ASC PRETRIAL SET FOR 02/13/2020 AT 11 K)0 IN CRTRM 1A BEFORE MAGISTRATE
JASON P. PARKER.
Dl OT D) WAEL LASHEEN FINANCIAL DISCLOSURE STATEMENT WITH AFFIDAVIT
OF PROPERTY, INCOME AND EXPENSES
PI AF AFFIDAVIT OF INCOME AND EXPENSES FILED PI JILL LASHEEN PLAINTIFFS
FINANCIAL DISCLOSURE STATEMENT

H

H

N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SC PRETRIAL SET FOR02/13/2020 AT 11:00 IN CRTRM 1ABEFORE JUDGE
ROSEMARY GRDINA GOLD.
PI AN REPLY TO COUNTERCLAIM FILED P1 JILL LASHEEN PLAINTIFFS REPLY TO
01/07/20
COUNTERCLAIM
D1 SF DEPOSIT AMOUNT PAID
12/27/19
12/27/19
D1 AN ANSWER TO COMPLAINT AND COUNTERCLAIM (NO CHILDREN) $200 FILED,,
ATTORNEY LISARKRAEMER(0031338)
N/A SR FEDEX RECEIPT NO. 40487674 DELIVERED BY FEDEX 12/06/2019
12/07/19
LASHEEN/WAEL/ PROCESSED BY COC 12/07/2019.
12/03/19
N/A SR SUMMONS E-FILE COPY COST
D1 CS WRIT FEE
12/03/19
D1 SR SUMS COMPLAINT(40487674) SENT BY FEDERAL EXPRESS. TO: WAEL
12/03/19
LASHEEN 20422 ALMAR DRIVE SHAKER HEIGHTS. OH 44122
N/A JE MUTUAL RESTRAINING ORDER ISSUED TO PLAINTIFF AND DEFENDANT
12/03/19
PURSUANT TO LOCAL RULE 24
N/A JE MANDATORY DISCLOSURE ORDER ISSUED TO PLAINTIFF AND DEFENDANT
12/03/19
PURSUANT TO LOCAL RULE 14 REV 8-13-2018
N/A SF JUDGE ROSEMARY GRDINA GOLD ASSIGNED (RANDOM)
12/03/19
PI SF LEGAL RESEARCH
12/03/19
12/03/19
PI SF LEGAL NEWS
PI SF LEGAL AID
12/03/19
PI SF DOMESTIC VIOLENCE FUND
12/03/19
PI SF DIVORCE DECREE FEE FUND
12/03/19
12/03/19
PI SF CLERK COMPUTER FEE
12/03/19
PI SF CLERKS FEES
PI SF DEPOSIT AMOUNT PAID GRACE MARIE MICLOT
12/03/19
12/03/19
N/A SF CASE FILED: COMPLAINT, PETITION OR APPLICATION FOR, HEALTH
INSURANCE AFFIDAVIT, PARENTING PROCEEDING AFFIDAVIT, PARENTING
PROCEEDING AFF. WIV-D APPL., SERVICE REQUEST
Copyright © 2020 PROWARE. All Rights Reserved. 1.1.723_722
01/08/20
01/07/20
01/07/20

Exhibit2

CALL FOR SERVICE REPORT
Date;
Tima'
04/12/2020
12:59:30
Location:
20422 ALMAR DR
CdiiypK
DOMESTIC
Reviewed By:

2030049098

Mrc: Dispatchers:
T
R309 R309
Zone:
City:
SHAKER HEIGHTS 5
Incident#:

Accident#:

Grid:
5

EMSft

Agency
SH
Rre#

Disposition:
ADVISED
Caller

Common Name:
Caller
JILLLASHEEN
Caller Address:

Unit
9203
9204
9205
9225
9253
9287

Dispatch: Route:
13:02:35
13:02:50 13:02:54
13:02:58
13:00:44
13:00:51 13:02:56
13:03:14

Phone
216-4704154
--------------------------------Arrive:
Cleared: Patient
13:03:10 13:54:28
13:03:17
13:01:12 13:58:31
13:02:41
13:08:32 13:14:51
13:12:43 13:42:32

Units/Times
Leave;
Hospital:

In Sendee:

Quarters:

Narrative
Vehicles Involved:
HNR3201 OH JF2SHADC7BH732532 SUBA
FEMALE CALLER STATES HER HUSBAND HAS BEEN HITTING HIS DAUGHTER
- From 04/12/202012:59:48 To 04/12/2020 13:00:03 Disp R309HE IS NOT HITTING HER NOW
-From04/12/2020 13:00:26 To 04/12/2020 13:00:37Disp R309CALLER DOES NOT WANT AN AMBULANCE AND NO WEAPONS IN THE HOUSE
-From04/12/2020 13:00:53 To 04/12/2020 13:01:41 Disp R309# Fever/Chills-NO
# Cough-NO
# Nasal / Chest Congestion -NO
# Sore Throat - NO
# Body Aches-NO
# Have you or anyone In your family been placed in quarantine -NO
# Have you had dose contact with anyone exposed to the Coronavirus in the past 14 days -NO
# If there are any positive responses, please have patient meet responders outside if able -From04/12/2020 13:01:43 To 04/12/2020 13:02:05Disp R309- Clearance From Unit 9203 04/12/2020 13:54:28SPOKE TO AU. PARTIES INVOLVED. SPOKE TO DAUGHTER, NOOR LASHEEN 1-21-08 WHO STATED HER
FATHER, WAEL LASHEEN 8-16-1971, SLAPPED HER WITH OPEN HANDS ON HER ARMS AND BACK BECAUSE HB
WAS UPSET THAT SHE MADE FOOD FOR HERSELF AND NOT FOR THE REST OF THE FAMILY. SPOKE TO
FATHER, WAEL LASHEEN, WHO STATED HE WAS DISCIPLING HIS DAUGHTER, NOOR, FOR BEING
DISRESPECTFUL NOOR DID NOT DISPLAY ANY SIGNS OF INJURY AND MEDICAL CARE WAS DECLINED.

Badgel Badge2: Agency
9203
SH
9204
SH
9205
SH
9225
SH
9253
SH
9287
SH

1

Incident Number

SHAKER HEIGHTS PD
Page# 2
Incident #:

Persons Involved with Incident
Relation:
PRP

First Name:
Middle
JILL
Street #: Street Name:
Hgt:

Wgt:

Hair:

Arrest #:

CAD#:
2030049098

Last Name:
LASHEEN
Apt:
City:

Til:

Date of Contact: Pbone:
04/12/2020
DOB:

SSN:

Pager:

St:

Cell Phone:

Employer Phone:

Zip:

Eyes: Race: Sex: Physical Marks:

Offenses:

Suspected of using:

Resident Class:

Victim Type:

/
Incident #:

Relation:

/

Arrest #:

CAD#:

2030049098
First Name:
Til: DOB:
Middle
Last Name:
LASHEEN
WAEL
08/16/1971
Apt:
City:
Street #: Street Name:
St: Zip:
20422
ALMAR DR
SHAKER HEIGHTS OH 44122
Hgt: Wgt:
Hair: Eyes: Race: Sex: Physical Marks:
600 170
BRO BRO
M

Date of Contact: Phone:
04/12/2020
SSN:

Pager:

Cell Phone:

Employer Phone:

Offenses:

'!
Resident Class:

Suspected of using:

/

Reviewing Supervisor:

Victim Type:

/

Bureau Supervisor:

Officer:
I
l

i

CAD Number

SHAKER HEIGHTS
Plate:
HNR3201
Year:
2011

2030049098

Vebkla Involved oM He Incident

Page # 3
LIC St:
OH
Make:
SUBA

Model:

LIC Type:
PC
Style:

Vehicle Yr.:
2011

Color:
GRY /

VIN#:
JF2SHADC7BH732532

Exhibit3

• jBBSSSfc*
*?**»

DR 19379428

1J3212587

1#^

• i_!^ij
IN THE COURT OF COMMON PLEAS
DOMESTIC RELATIONS DIVISION
CUYAHOGA COUNTY, OHIO

JILL LASHEEN
Plaintiff,
v.

)
)

)
)
>

)
WAEL LASHEEN
Defendant

CASE NO. DR 19 379428
JUDGE ROSEMARY GRDINA GOLD
AGREED JUDGMENT ENTRY

)
)
)

Plaintiff, Jill Lasheen, and Defendant, Wael Lasheen, by and through their undersigned
counsel have entered into the below agreement as it relates to interim issues commencing April
12, 2020 except as otherwise set forth herein. The Court hereby adopts the parties’ agreement as
set forth below.

IT IS THEREFORE HEREBY ORDERED, ADJUDGED AND DECREED that:
I. Plaintiff dial! be entitled to exclusive possession of the residence located at 20422
Almar Drive Shaker Heights, Ohio 44122. Defendant shall not interfere with
Plaintiff's right to occupy the residence including, but not limited to canceling
utilities or insurance or interrupting telephone service, mail delivery, or the delivery
of any other documents.
2. Defendant shall not remove, damage, hide, or dispose ofany property or pets owned
or possessed by Plaintiff. Defendant shall be entitled to remove Ids clothing and
everyday personal effects from die residence on a date and time agreed upon by the
parties’ counsel and a police officer shall be present to supervise. Defendant shall
also leave his garage door opener in the mailbox of the residence at the time of his
retrieval of his personal effects. The full division of all other personal property,
household goods, and furnishings shall be addressed in the global divorce
settlement/trial.
3. Defendant shall not initiate or have any contact with Plaintiff, except as set forth
herein. Contact includes, but is not limited to, landline, cordless, cellular or digital
telephone; text; instant messaging; fax; e-mail; voice mail; delivery service; social
networking media; blogging; writings; electronic communications; or
communications by any other means directly or through another person.
The parties shall have no communication with each other except as it relates to
necessary communication regarding the parties’ children, which shall be done only
via Our Family Wizard. Both parties shall purchase a subscription to Our Family
Wizard and create a functional account no later than April 22,2020. Both parties
(01824167)

shall provide their attorneys access to view the communication on their account
4. Except for required Court appearances for the parties’ divorce and the children’s
school/spoiting events, Defendant shall not be present within 500 feet or (distance)
of Plaintiff wherever Plaintiff may be found, or any place Defendant knows or
should know Plaintiff is likely to be. If Defendant accidentally comes in contact
with Plaintiff in any public or private place. Defendant must depart immediately.
This includes encounters on public and private roads, highways, and thoroughfares.
5. Commencing April 22,2020, so long as Defendant has an operational Our family
Wizard account, Defendant shall be entitled to parenting time with the parties’
minor children as follows: Until such time as Defendant secures stable housing
(defined as a residence with at least two bedrooms), Defendant shall be entitled to
parenting time with the children on Wednesdays from after school and activities or
5:00 p.m. if no school, until 8:00 p.m. and alternating weekends from Saturdays at
11:00 a.m. until 4:00 p.m. and Sundays from 11:00 ajn. until 4:00 p.m. So long as
the governor’s shelter in place order is in effect, neither party shall take the children
to operating businesses and both parties shall ensure that they and the children are
practicing proper social distancing during their respective parenting time.
Defendant shall pick up and drop off the children at the designated times herein in
the parking lot of J. Pistone caft.
6. Defendant shall not interfere with the residence, or place of employment of
Plaintiff, including the buildings, grounds, and parking lots at those locations.
7. Defendant shall set up a post office box and Plaintiff shall forward all mail to
Defendant at said address in a timely fashion. This will continue for a period of
three months, or until the marital residence is refinanced, whichever is sooner.
8. Plaintiff shall not cancel or otherwise aha- foe health or auto insurance of foe
Defendant until the parties' divorce is journalized or requested to do so sooner by
the Defendant.
9. Until the parties’ divorce is finalized, or until requested to do so by the Defendant,
whichever is sooner, Defendant shall pay 50% of foe health insurance premiums
within thirty (30) days of receipt from his attorney.
10. Defendant shall not cause or encourage any person to do any act prohibited by this
Order.

(01824167)

IT IS FURTHER ORDERED that all remaining orders not modified herein shall remain
in full force and effect.
IT IS SO ORDERED.
M><%ltdii2uARY GRDINA GOLD

JU
1st Grace M. Miclot
BARBARA K. ROMAN (0014607)
GRACE MICLOT (0095345)
Attorneysfor Plaintiff
Is/ Lisa R. Kraemer (per electronic consent!
LISA R. KRAEMER (0031338)
Attorneyfor Dffendant

RECEIVED FOR HUNG
17.',
Cuyahoga County
rts
By

(0IB24I6T)

Exhibit4

From: Lisa R Kraemer <•iisarkraemer@vahoo.com>
Date: Mav 27 2020 at 4:40:02 PM EOT
To: Wael lasheen <lasheendivorce@amail com>
Subject: Re: Parenting Time issues
WaelI am not sure when our communication broke down.
I am certainly sorry that it did.
I thought we had worked through a resolution of many of the issues in the case at some
point.
I did forward you the agreed judgment entry that was filed, and I will send it again.
Today I was simply forwarding an email from opposing counsel.
I did advise that the court was not having any in person hearings. 1 am sorry that I wasn't
more clear.
It is hard to know when in person hearings are resuming for the court. I did inform the judge
that you wanted
to attend the next hearing. I believe it will be scheduled as a zoom hearing.
I have attached my motion to withdraw.

Lisa R. Kraemer Attorney at Law 20133 Farnsleigh Road Cleveland, OH 44122 216-991-6200
fax 216-991-6199 The information contained in this electronic message is intended for use
only by the individual or entity to which it is addressed and may be an attorney-client
communication, and as such, is privileged and confidential. If the reader of the message is
not the intended recipient or agent responsible for delivering the message to the intended
recipient, you are hereby notified that any dissemination, distribution,or copying of this
communication is strictly prohibited. If you have received this communication in error, please
notify us immediately by email or telephone 216-991-6200 and delete the original message.
Thank you.

Exhibit5

RE: DR 19 379428
Received: Tuesday, June 30, 2020 2:23 PM
From: Lucy Deleon ldeleon1@cuyahogacounty.us
To: Wael La sheen Waellasheen1@protonmail.com
Thanks, you will receive the new ZOOM invitation shortly.

From: Wael Lasheen <Waellasheen1@protonmail.com>
Sent: Tuesday, June 30, 2020 2:22 PM
To: Lucy Deleon <ldeleon1@cuyahogacounty.us>
Subject: RE: DR _19 379428

yes

Sent with ProtonMail Secure Email.

Original Message
On Tuesday, June 30, 2020 2:20 PM, Lucy Deleon <ldeleon1@cuvahoaacountv.us>
wrote:

Mr. Lasheen.

Can you be available to resume the pretrial by ZOOMy this coming Thursday, at
9:30? Please respond promptly so that I can send new ZOOM invitations out...

Lucy DeLeon, Bailiff

Judge Rosemary Grdina Gold
Cuyahoga County Court of Common Pleas
Division of Domstic Relations
1 W. Lakeside Avenue, 3rd Floor, Ctrm. 1-A
Cleveland, OH 44113-1083
(216) 443-8812
Ideleonl @cuvahoQacountv.us

From: Wael Lasheen <Wiaellasheen1@protonmail.com>
Sent: Tuesday, June 30, 2020 9:54 AM
To: Lucy Deleon <ldeleon 1 @cuvahoQacountv.us>
Subject: DR .19 379428

Good Morning Lucy,

Any news about the new date?

Thank you

Wael Lasheen

Sent with ProtonMail Secure Email.

Exhibits

i

CUY
JILL LASHEEN,
Plaintiff,
V.

omn

COURT USEONIY

Case No. DR19 379428
JUDGE ROSEMARY GRDINA GOLD
JUDGMENT ENTRY

WAEL LASHEEN,
Defendant.
This matter is before the Court upon Defendant’s Motion to Stay Family Evaluation
(Motion No. 434093) filed on August 3, 2020, Motion to Request Conflict ofInterest Statements
(Motion No. 434312) filed on August 11,2020 and Motion to Release Ex Parte Communication
(Motion No. 434314) filed on August 11,2020.
Defendant’s Motion to Stay Family Evaluation requests that this Court “stay proceedings
of family evaluation pending the outcome of Motion to Dismiss Agreement, MO.# 433196 filed
on 06/29/2020”.' At the outset, the Court finds that the outcome of Defendant's Motion to
Dismiss Agreement, which is essentially a Motion to Show Cause claiming that he has been
denied visitation does not impact the process of this Court’s Family Evaluation Services.2
Moreover, the parties were referred to the Court’s Family Evaluation Services for a
forensic evaluation on August 3, 2020 after Defendant indicated he was concerned about
Plaintiffs ability to care for the parties’ minor children. Defendant and Plaintiffs counsel
agreed to the refenral. The order of referral specifically provides that all parties “shall participate
in and cooperate with all aspects of the evaluation." The Court finds Defendant has offered no
basis by which this Court can justify delaying the Family Evaluation process, which is being
conducted in the best interests of the minor children. Defendant’s Motion to Stay Family
Evaluation is therefore denied.
Defendant’s Motion to Request Conflict of Interest Statements requests that the Court’s
Director of Family Evaluation Services submit “conflict of interest statement regarding this case
and participating attomeys/firros” and his Motion to Release Ex Parte Communication asks for a
statement regarding “all ex parte communication pertaining to this case. Including but not limited
to dates, participants, and all available information (sic]". Defendant offers no explanation or
1 The Court notes that Defendant asserts that the Family Evaluation Services process should be stayed pursuant to
"Title 9 U.S. Code § 3. as amended", which pertains to International Commercial Arbitration. The cited statute is
thus inapplicable to these proceedings.
2 It must also be noted that Defendant agreed withdraw this Motion during the 7/2/2020 pretrial conducted in this
matter, as he has been getting regular visitation.
HI IO(Reviied 04/1014)

support for either of these requests.. The Court finds these Motions are too vague to be
considered and are therefore stricken as improper.
I

IT IS THEREFORE ORDERED Motion No. 434093 is DENIED.
IT IS FURTHER ORDERED Motions No. 434312 and 434314 are STRICKEN.

JUDG

GOLD

to*0*
I

ar-

HI 10 (Revind 04/2014)

APPENEDIX D Ohio Revised Code (O.R.C). 2701.03

2701.03 Disqualification of common pleas judge - affidavit.
(A) If a judge of the court of common pleas allegedly is interested in a proceeding pending before the court,
allegedly is related to or has a bias or prejudice for or against a party to a proceeding pending before the court or
a party's counsel, or allegedly otherwise is disqualified to preside in a proceeding pending before the court, any
party to the proceeding or the party's counsel may file an affidavit of disqualification with the clerk of the
supreme court in accordance with division (B) of this section.
(B) An affidavit of disqualification filed under section 2101.39 , 2501.13, 2701.031, or 2743.041 of the Revised
Code or division (A) of this section shall be filed with the clerk of the supreme court not less than seven calendar
days before the day on which the next hearing in the proceeding is scheduled and shall include all of the
following:
(1) The specific allegations on which the claim of interest, bias, prejudice, or disqualification is based and the
facts to support each of those allegations or, in relation to an affidavit filed against a judge of a court of appeals,
a specific allegation that the judge presided in the lower court in the same proceeding and the facts to support
that allegation;
(2) The jurat of a notary public or another person authorized to administer oaths or affirmations;
(3) A certificate indicating that a copy of the affidavit has been served on the probate judge, judge of a court of
appeals, judge of a court of common pleas, judge of a municipal or county court, or judge of the court of claims
against whom the affidavit is filed and on all other parties or their counsel;
(4) The date of the next scheduled hearing in the proceeding or, if there is no hearing scheduled, a statement that
there is no hearing scheduled.
(C)
(1) Except as provided in division (C)(2) of this section, when an affidavit of disqualification is presented to the
clerk of the supreme court for filing under division (B) of this section, all of the following apply:
(a) The clerk of the supreme court shall accept the affidavit for filing and shall forward the affidavit to the chief
justice of the supreme court.
(b) The supreme court shall send notice of the filing of the affidavit to the probate court served by the judge if the
affidavit is filed against a probate court judge, to the clerk of the court of appeals served by the judge if the
affidavit is filed against a judge of a court of appeals, to the clerk of the court of common pleas served by the
judge if the affidavit is filed against a judge of a court of common pleas, to the clerk of the municipal or county
court served by the judge if the affidavit is filed against a judge of a municipal or county court, or to the clerk of
the court of claims if the affidavit is filed against a judge of the court of claims.
(c) Upon receipt of the notice under division (C)(1)(b) of this section, the probate court, the clerk of the court of
appeals, the clerk of the court of common pleas, the clerk of the municipal or county court, or the clerk of the
court of claims shall enter the fact of the filing of the affidavit on the docket of the probate court, the docket of
the court of appeals, the docket in the proceeding in the court of common pleas, the docket of the proceeding in
the municipal or county court, or the docket of the proceeding in the court of claims.
(2) The clerk of the supreme court shall not accept an affidavit of disqualification presented for filing under
division (B) of this section if it is not timely presented for filing or does not satisfy the requirements of divisions
(B)(2), (3), and (4) of this section.
(D)
(1) Except as provided in divisions (D)(2) to (4) of this section, if the clerk of the supreme court accepts an
affidavit of disqualification for filing under divisions (B) and (C) of this section, the affidavit deprives the judge
against whom the affidavit was filed of any authority to preside in the proceeding until the chief justice of the

•»
" supreme court, or a justice of the supreme court designated by the chief justice, rules on the affidavit pursuant to
division (E) of this section.
(2) A judge against whom an affidavit of disqualification has been filed under divisions (B) and (C) of this section
may do any of the following that is applicable:
(a) If, based on the scheduled hearing date, the affidavit was not timely filed, the judge may preside in the
proceeding.
(b) If the proceeding is a domestic relations proceeding, the judge may issue any temporary order relating to
spousal support pendente lite and the support, maintenance, and allocation of parental rights and responsibilities
for the care of children.
(c) If the proceeding pertains to a complaint brought pursuant to Chapter 2151. or 2152. of the Revised Code,
the judge may issue any temporary order pertaining to the relation and conduct of any other person toward a
child who is the subject of a complaint as the interest and welfare of the child may require.
(3) A judge against whom an affidavit of disqualification has been filed under divisions (B) and (C) of this section
may determine a matter that does not affect a substantive right of any of the parties.
(4) If the clerk of the supreme court accepts an affidavit of disqualification for filing under divisions (B) and (C) of
this section, if the chief justice of the supreme court, or a justice of the supreme court designated by the chief
justice, denies the affidavit of disqualification pursuant to division (E) of this section, and if, after the denial, a
second or subsequent affidavit of disqualification regarding the same judge and the same proceeding is filed by
the same party who filed or on whose behalf was filed the affidavit that was denied or by counsel for the same
party who filed or on whose behalf was filed the affidavit that was denied, the judge against whom the second or
subsequent affidavit is filed may preside in the proceeding prior to the ruling of the chief justice of the supreme
court, or a justice designated by the chief justice, on the second or subsequent affidavit.
(E) If the clerk of the supreme court accepts an affidavit of disqualification for filing under divisions (B) and (C) of
this section and if the chief justice of the supreme court, or any justice of the supreme court designated by the
chief justice, determines that the interest, bias, prejudice, or disqualification alleged in the affidavit does not
exist, the chief justice or the designated justice shall issue an entry denying the affidavit of disqualification. If the
chief justice of the supreme court, or any justice of the supreme court designated by the chief justice, determines
that the interest, bias, prejudice, or disqualification alleged in the affidavit exists, the chief justice or the
designated justice shall issue an entry that disqualifies that judge from presiding in the proceeding and either
order that the proceeding be assigned to another judge of the court of which the disqualified judge is a member
pursuant to the court’s random assignment process, to a judge of another court, or to a retired judge.

Amended by 130th General Assembly File No. TBD, HB 261, §1, eff. 7/10/2014.
Effective Date: 01-01-2002 .

APPENEDIX E Supreme Court of Ohio Rules of Practice 21.02(e)

RULES 21.02-21.04

(E)

Motion for Reconsideration
No motion for reconsideration may be filed and the Clerk of the Su preme Court shall refuse to file
a motion for reconsideration regarding an affidavit of disqualification.

Effective Date: March 1,2019

S.Ct.Prac.R. 21.03. Service of Documents Filed Relating to Affidavits of Disqualification.
All documents filed under these rules shall be served by the affiant or by the judge against whom the
affidavit was filed by personal service, U.S. mail, facsimile transmission, or e-mail.
Effective Date: March 1,2019

S.Ct.Prac.R. 21.04

Application of Other Supreme Court Rules of Practice.

Unless clearly inapplicable, S.Ct.Prac.R. 3.01 through 3.14 and S.Ct.Prac.R. 4.01 through 4.06 shall apply
and supplement these rules as necessary.
Effective Date: March 1, 2019

118

The Supreme Court of Ohio ■ 2021 Rules of Practice

APPENEDIX G Affidavit of Disqualification Related to the Decision Subject
of This Writ

114439262

DR19379428

I PMLilB)

1

SEP 1 1 2Q20

Supr eme (Emtri of (©bin Ci.erk of court
1 SUPREME COURT QPflHin

In re Disqualification of Hon. Tonya Jones and >;>
Judge Leslie Celebrezze

l
i

Case No. 20-AP-075
ENTRY

I

ON AFFIDAVIT OF DISQUALIFICATION in
Jill Lasheen v. Wael Lasheen, Cuyahoga
County Court of Common Pleas, Domestic
Relations Division, Case No. DR-19-379428

l

I

i

Pursuant to R.C. 2701.33(C)(1)(b), notice is hereby given to the clerk of the
Cuyahoga County Court of Common Pleas, Domestic Relations Division, that on
September 10,2020, the Clerk or the Supreme Court accepted for filing an affidavit seeking
to disqualify Judge Tonya R. Jones and Judge Leslie A. Celebrezze from the following
matter: Jill Lasheen v. Wael Lasheen, Cuyahoga County Court of Common Pleas,
Domestic Relations Division, C ise No. DR-19-379428.
R.C. 2701.03(C)(1)(c) requires that upon receipt of this notice, the clerk shall enter
the fact of the filing of the affidavit on the docket of the proceeding pending in the
Cuyahoga County Court of Common Pleas, Domestic Relations Division.
m

only

LO
i-

L'J

(1
rs
Q_

Lr

1-0

C^>
—-j

q

: .’I

l J
is c;
ii.

<

62
o
i!

X.

• .<

MJULKJUl*.

Maureen O’Connor
Chief Justice

i

$EP j

4 ^020

I
k.

i

UINTED STATES OHIO SUPREME COURT
AFFIDAVIT OF DISQUALIFICATION

20APO 75
JILLLASHEEN
PLAINTIFF
20422 ALMAR DR
SHAKER HEIGHTS, OH 44122

IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
CASE NO. DR19379428

i
i

I
i

!

BARBARA K. ROMAN (0014607)
GRACE MICLOT (0095345)
Attorneys for Plaintiff
Meyers, Roman, Frledberg & Lew is
28601 Chagrin Boulevard, Suite 600
Cleveland, Ohio 44122
|

The Honorable JUDGE: TONYA R JONES
AND
The Honorable JUDGE: LESLIE ANN
CELEBREZZE
Date of The Next Scheduled Hearing:
None

Tel:
(216) 831-0042
Fax: (216) 831-0542
Email: broman@meyersroman.com
gmiclot@meyersroman.com

vs.
WAELLASHEEN PROSE
DEFENDANT/AFFIANT
PO BOX 20 2555
SHAKER HEIGHTS, OH 44120

Tel:

(216) 414-8759

Email: WAELLASHEENl@PROTONMAIL.COM
I
I

r
SKPn 2U20
1
(s) Wael Lasheen

CLERK OP CUURT
SUPREME COURT OF OHIO

n

t

The Defendant (Affiant) WAEL LASHEEN hereby moves the OHIO SUPREME COURT (OSC) to
disqualify the Honorable Judge TONYA R JONES (Judge Jones) from presiding over CASE NO. DR
i
i

19379428 In The Court Of Common Pleas Division Of Domestic Relations Cuyahoga County,
Ohio, because The Honorable JUD3E: LESLIE ANN CELEBREZZE (Judge Celebrezze) lacked

l

JURISDICTION to make such an assignment at the time it was made. The Affiant Hereby moves

i

the OSC to DISQUALIFY Judge Celebrezze from her administrative duties over CASE NO. DR
19379428 due to judicial misconduct and the appearance of prejudice, bias, and impropriety.
We charge Judge Celebrezze with Judicial Misconduct. The Affiant hereby moves the OSC to
halt ail proceeding in the case and TRANSFER THE CASE TO ANOTHER COUNTY to avoid any
I
appearance of prejudice, bias, or impropriety.
FACTUAL BACKGROUND
I

The Affiant filed an Affidavit of Disqualification AP-20-068 on 08/19/2020 (Exhibit 1) and a
supplement to the affidavit AP-20 068 on 08/26/2020 (Exhibit 2). After the Initial filing on
i

08/19/2020 the affiant inquired at the OSC if the Family Evaluation Services will be halted, the
Defendant was referred to the Clerk of the Court of Common Pleas and no answer was
forthcoming. Therefore, the Affiant submitted a motion to Dismiss Family Evaluation Services
which was to be referred to Judge Gold (as informed by the Clerk). On 8/24/2020 The
Honorable ROSEMARY GRDINA GOLD (Judge Gold) issued an order (Exhibit 3) affirming the OSC

I
mandate (Exhibit 4) to halt all proceedings, including Family Evaluation Services, until the
l

Affidavit of Disqualification was settled. Judge Gold then recused themself on 09/01/2020
(Exhibit 5). The Administrative Judge, Judge Celebrezze, assigned on 09/04/2020 8:38 AM Judge

l

Jones to the divorce case DR 19379428 (Exhibit 6). The same day, the Defendant contacted the

i

I
i
i

i
i

2
(s) Wael Lasheen

'I

I

1

OSC Clerk to inquire about the status of the Affidavit of Disqualification AP-20-068, the Clerk
called back at 11:17 AM to inform that a Judgment was rendered. Later the OSC Clerk
confirmed in an Email that the Judgement was received and Filed around 11AM (Exhibit 7).
EVIDENCE/LAW
1. It is not unethical to be imperfect, and it would be unfair to sanction a judge for not
being infallible while making hundreds of decisions often under pressure. In addition, if
every error of law or abuse of discretion subjected a judge to discipline as well as
reversal, the independence of the judiciary would be threatened. In re Curda, 49 P.3d
255,261 (Alaska 2002). Yet it cannot be stressed enough that courts have questioned
whether the invocation of Judicial independence in judicial disciplinary proceedings
misapplies the concept because judicial independence "does not refer to independence
from judicial disciplinary bodies (or from higher courts).
"In the traditional sense, the concept of an independent judiciary refers to the need for
a separation between the judicial branch and the legislative and executive branches....
Judicial independence requires a judge to commit to following the constitution, the
statutes, common law principles, and precedent without intrusion from or intruding
upon other branches of government." In re Hammermaster, 985 P.2d 924,936 (Wash.
i

1999). Even a federal court suggested that the constitutional measures meant to protect
judicial independence were not intended to insulate individual judges from
accountability to "the world as a whole (including the judicial branch itself)," but "to
safeguard the branch's independence from its two competitors." McBryde v. Comm, to
Review Circuit Council Conduct and Disability Orders, 264 F.3d 52,65 (D.C. Or. 2001).
3
(s) Wael Lasheen

i

I

J

Still some argue that judicial decisions that are not derived from improper influence,
l
bias, or corruption should not lead to discipline, that view is not supported by case law.
i

Judges are not unfrequently sanctioned. In many of these cases, there were no
indications that the judges (new that their conduct was contrary to law, which suggests
that "good faith" is not always a defense.
2. On 09/04/2020 8:38 AM Judge Celebrezze, assigned Judge Jones to case DR 19379428
(Exhibit 6). At that time Jud ge Celebrezze had no Jurisdiction over the case because 1the OSC had not filed a judgement on the affidavit of disqualification (Exhibit 7); 2-Judge
Gold's order filed on 8/24/202 prohibited further action on the case, "IT IS ORDERED
that no further action will be taken on this case until the Chief Justice has ruled on the
Affidavit, and any scheduled events are hereby cancelled." (Exhibit 3). The US Supreme
Court in Carlisle v. United States, S17 U.S. 416 (1996) held that observing deadlines is
not left for court discretior and rejected that it is permissible for the sake of simplicity
or expediency "(c) The Court also rejects petitioner's remaining arguments:... (2) that
the failure to allow the District Court to order acquittal would violate the Fifth
Amendment's Due Process Clause; and (3) that prohibiting a district court from granting
an acquittal motion filed o lly one day late will lead to needless appeals and habeas
corpus proceedings, pp. 428-430." The US Supreme Court also rejects the idea of

i

inherent power of courts and equates it to rewriting the law "(d) The Court rebuts
arguments put forward by the dissent, including the proposition that permissive rules
do not withdraw pre-existing inherent powers, and the dissent's reliance on this Court's
I

precedents to support the existence of the ''inherent power” petitioner invokes, pp.

4
(s) Wael Lasheen

.!
I

i

430-433." and "(b) This COi rt rejects petitioner's invocation of courts' "inherent
supervisory power" as alternative authority for the District Court's action. Whatever the
scope of federal courts' inherent power to formulate procedural rules not specifically

i

required by the Constitute or the Congress, it does not include the power to develop
rules that circumvent or co lflict with the Federal Rules of Criminal Procedure."

i

3. If for the sake of argument iwe entertain the possibility that Judge Gold's withdrawal
from the case return Jurisd ctlon of the case to Judge Celebrezze we will counter that
I
i

the OSC have the authority to reject Judge Gold's withdrawal from the case, so will we
have two judges assigned to the same case? Also Judge Gold is prohibited from taking
any action on the case by the OSC except as provided in R.C 2701.03(D)(2) through (4)
and as such cannot issue an order to reassign the case.
4. It is noteworthy that there are no pending actions on the case that necessitate an
emergency appointment of a Judge (Exhibit 8 Case Docket), and should such an
emergency arise a number of Magistrates are always available and more than capable of
handling emergency situat ons as done on a daily basis in domestic violence cases.
5. The appointment of Judge Jones in an untimely manner while awaiting a judgement on
an affidavit for disqualification AP-20-068 is a questionable conduct, given the nature of

I

the affidavit. Judges must avoid all impropriety and appearance of impropriety. Judge
Celebrezze must expect to be the subject of public scrutiny, therefore accept conduct

i

restrictions that might be viewed as burdensome. The unjustifiable appointment of
Judge Jones is at odds with OSC Code of Ethics Canon 2 "A Judge Shall Respect and
Comply with the Law and Shall Act at all Times in a Manner that Promotes Public

5
(s) Wael Lasheen

l

*
\

Confidence in the Integrity1 and Impartiality of the Judiciary", and MAYBE viewed at
i
i

odds with OSC Code of Ethics Canon 4 (A) "A judge shall not allow family, social.
political, or other relationships to influence the judge's judicial conduct or judgment.
An unbiased observer might rightly view that appointment in the absence of a need to

l

justify it, before a ruling on the Affidavit is released, and in apparent violation of Judge

i

Gold's own order with skepticism and will view Judge Ceiebrezze actions as damning
evidence of prejudice and bias against the Affiant. "For generations before and since it
i

has been taught that a judge must possess the confidence of the community; that he

I
must not only be independent and honest, but, equally important, believed by all men
to be independent and honest. A cloud of witnesses testify that 'justice must not only
be done, it must be seen to be done.' Without the appearance as well as the fact of
justice, respect for the law vanishes in a democracy." Are Courts Going the Way of the
Dinosaur? American Bar Association Journal Vol. 57, No. 3 (MARCH 1971).
6. In 2017 the US SUPREME COURT in Rippo v. Baker, 580 U.S.__ (2017), vacated the
Nevada Supreme Court's judgment that relied on the presence of actual bias as opposed
to an objective probability of actual bias.
7. Since the initial filing on 8/19/2020 of the affidavit of disqualification 20-AP-068, the
Judge recused themselves [Exhibit 4), opposing counsel is no longer affiliated with the
law firm (Exhibit 9), and the affidavit was dismissed as moot (Exhibit 10). Although the
Judge disqualified themselves, many concerns remain, particularly as to the court's
administration and the influence of the law firm over the court staff, especially now that

6
(s) Wael Lasheen

I

4

the case returned to the same court the opposing counsel seems too confident they
refuse to talk to the Defend ant.
8. We charge Judge Celebrezze with Judicial misconduct:
l
l

/.

Appellate review "seeks to correct past prejudice to a particular party" while
judicial discipline "seeks to prevent potential prejudice to future litigants and the
judiciary in general.' Laster, 274 N.W.2dat 745. See also In re Lichtenstein, 685
P.2d 204,209 (Colo. 1984). Although the appellate and judicial discipline
systems have different goals accomplishing both objectives in some cases
requires both appel ate review and judicial discipline. In re Schenck, 870 P.2d 185

(Or. 1993).
il.

Judge Celebrezze defied Judge Gold's order (Exhibit3) by appointing Judge Jones
to the case DR19379428, and exhibited an appearance of impropriety by
preceding the OSC judgement on the affidavit of disqualification 20-AP-068, thus
violating OSC Code of Ethics Canon 2 "A Judge Shall Respect and Comply with the
Law and Shall Act at: all Times in a Manner that Promotes Public Confidence in
the Integrity and Impartiality of the Judiciary". A clear legal error. An unbiased
observer might rightly view that appointment in the absence of a need to justify

i

it, before a ruling on the Affidavit is released, and in apparent violation of Judge
Gold's own order with skepticism and will view Judge Celebrezze actions as
improper and will have to wonder if prejudice and bias against the Affiant played
a role in that decision.

7

(s) Wael Lasheen

i
l
I

I

l

III.

During hearings we are aware of about three instances where Judge Gold was
out on medical leavJudge Gold exhibited impaired capacity at times and was
unaware of basic current events, for example she was unaware of the OSC filing

I

deadline extension md wanted to punish the Defendant erroneously for "late
filing", in June. Judge Gold became dependent on the opposing counsel (as the
lawyer in the group >, and hence the defendant request for ex parte
communications in ils previous affidavit of disqualification (Exhibit 1). We
contend that Judge Celebrezze should have been aware of Judge Gold health
limitations and impact on performance of her judicial duties, and Judge
Celebrezze failure to protect Judge Gold exposed Judge Gold to predatory
practices and the Affiant to dire consequences. This is a violation of OSC Code of
Ethics Canon 3 (c).
IV.

Judge Celebrezze foiled to ensure that Judge Gold provided recordings,
transcripts, or any record of hearings to the Court Reporting Department as

I

I

required by law of a court of record. The reporting department denied
possession of any recording, transcripts, or record required for an appeal filed by

I

the Defendant on 06/24/2020, and for at least a month thereafter. This a
i

violation of OSC Code of Ethics Canon 3

i

I

8
(s) Waei Lasheen

l
I

I
I
I
I

I

Respectfully Submitted,

i

Sworn to, or affirmed, and subscribed in my presence this fO Day of

.

2020

I

i

I
i

l
i

Signature
WAEL LASHEEN PRO SE

0*1 /jzP'L'0

PO BOX 20 2555
SHAKER HEIGHTS, OH 44120
TelTel.

01fi»A1A-R7«;Q
(216)414-8759

ALEC JAMES SWERESS
INOTARYPUBUCSTATEOFOHIO

/

Email: WAEUASHEENl@P«OTONMAILCO^^tj %

w
I
I

I

10
(s) Wael Lasheen
i

i

i

l
i
i

r

i

CERRCATE OF SERVICE

i

i
i

Please take notice that this affidavit was served via US mail, on 09/10/2020 to the following:
BARBARA K. ROMAN (0014607)

i

Attorney for Plaintiff
Meyers, Roman, Friedberg & lewis
28601 Chagrin Boulevard, Suite 600
I

Cleveland, Ohio 44122

I
l

The Honorable JUDGE: TONYA R JONES
AND
The Honorable JUDGE: LESLIE ANN CELEBREZZE
Cuyahoga County Court of Common Pleas
Division of Domestic Relations
1W. Lakeside Avenue
Cleveland, OH 44113-1083

11

II

(s) Wael Lasheen

Appendix 1

i

i

I
I
I
I

I

I
I

I

I

I

I

r

UINTED STATES OHIO SUPREME COURT
AFFIDAVIT OF DISQUALIFICATION

20 APO 6 8
JILL LASHEEN
PLAINTIFF
20422 ALMAR DR
SHAKER HEIGHTS, OH 44122

:

IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
CASE NO. PR19379428

BARBARA K. ROMAN (0014607)
GRACE MICLOT(009S34S)
Attomayi for PlalntMf
Meyers, Roman, Friedberg ft Lewis
28601 Chagrin Boulevard, Suite >00
Cleveland, Ohio 44122
Tel:
(216)831-0042
Fax: (216)831-0542
Email: broman@meyersroman.com
gmldot@meyersroman.< om

JUDGE: ROSEMARY GRDINA GOLD
Date of The Next Scheduled Hearing:
08/27/2020

vs.
WAEL LASHEEN PROSE
DEFENDANT

PO BOX 20 2555
SHAKER HEIGHTS, OH 44120

Tel:
I

(216) 414-8759

Email: WAEUASHEENl@PROTpNMAIl.COM

FOlIi
AUG 19 2OZ0
CilRK OF COURT
SUPREME COURT OF OHIO
i

(s) Wael Lasheen

I
I

i

I

!

•I

I
I .
I

1
I

I
I

The Defendant (Affiant) WAEl LASHEEN hereby moves the US OHIO SUPREME COURT to
disqualify the Honorable Judge ROSEMARY GRDJNA GOLD (fudge Gold) from presiding over
CASE NO. DR19379428 In The Court Of Common Pleas Division Of Domestic Relations
Cuyahoga County, Ohio, because of Bias and Prejudice. I move the court to halt all proceeding
in the case and transfer the case (to another court.
FACTUAL BACKGROUND
The Plaintiff filed for divorce on 12/03/2019 (Exhibit 1: CASE DOCKET). The Plaintiff filed a
temporary restraining order and a domestic violence case on 04/12/2020 after an incident
where the Defendant was disciplining his daughter, and where by 911 was called but no police
report generated; only a "service call statement* (Exhlblt2: Police Statement). An Agreement
was reached on 04/23/2020 through the respective attorneys (Exhibit3: Agreement). Defendant
dismissed his attorney because he could no longer afford them and because the attorney did
not disdose that this agreement will impact child custody in the future; this was Journalised on
06/12/2020. A pretrial hearing (I test Hearing) was scheduled for 05/11/2020. A pretrial hearing
(Second Hearing) scheduled for 06/08/2020 was cancelled without notice to the Defendant or
his Attorney of record (Exhlbit4: Attorney's Email). A pretrial hearing (Third Hearing) took place
on 06/29/2020. The Third hearing was Interrupted by Judge Gold's unstable internet
connection, and the hearing was rescheduled for 07/02/2020 (Fourth Hearing).

l
i

2

(s) Wael lasheen
I

I
i
I
I

I

■!

I

I
I

EVIDENCE / LAW

i

i

1. The Honorable Judge Gold has a reputation of sexism and activism among attorneys.
After being served with tfje lawsuit the Defendant visited several attorneys and on
revealing the name of the presiding judge some declined their services while others
i

requested double the cash advance of what is customary in such cases. Eventually an
i

I

attorney warned of the Judge's reputation "the Judge pressure attorneys too much".

I

That became evident, wh m the attorney who was eventually hired refused to file any

i

I

motion or even request ft r discovery, standard procedure in divorce cases, throughout

i

six months of representation (Exhibit 1: CASE DOCKET).
I

2. Unlike other judges, Judge Gold does not provide recordings or transcripts of hearings to
the Court Reporting Department as required by law of a court of record. The reporting
department denied possession of any recording, transcripts, or record required for an

l
i

appeal filed by the Defen lant on 06/24/2020, and thereafter.
3. During the Third Hearing on 6/29/2020Judge Gold was aggressive, threatening,
demeaning, and intimidating. Judge Gold declared her displeasure at self-representation

I

and would not allow the Defendant to challenge the opposing counsel.
During an exchange about marital debt:
• Plaintiff's Counse "he daims a marital debt of about 18,000*

I

I

• Judge "What about that*
• Defendant "Yes, I took loans from family for about 16,000"
• Judge'if it is from family then it Is a personal loan”

3

(s) Wael Lasheen

I

I

I

I

I
J
I
I

■
l

Defendant 'how t can be a personal loan when I have evidence that I spent It on
rent, food, and h< use supplies?*

i

• Judge'do you have documentation?"
•

Defendant "Yes I have western union slips with the names of my Mother and
sister, my family I s overseas! And I sent copies to the opposing counsel'

•

Plaintiffs counsel "Yes I have them your honor*

•

Judge'No, do you have a document that says you owe money*

•

Defendant 'I can get such a document”

•

Judge "Will it have a recent date?

l

I
i

• Judge'if you predate It, I will charge you with fraud*
[

Judge Gold has prejudged the case from the mere fact that the loan was owed to family,
i

albeit now amicable to v ew documents that the Defendant might present. A judge is

i
i

not entitled to draw an opinion based on the proceedings. See Harrison Franklin v.
McCaughtry, 398 F3d 9S5 (7th Gr. 2005). Indeed, Judge Gold has displayed deep-seated
and unequivocal antagonism that would make fair judgment Impossible.
4. The Third Hearing was cut short, consequently the Defendant was contacted by Lucy

l
i

DeLeon, Bailiff, to resum e pretrial (Exhiblt5: Bailiff’s Email) on 07/02/2020, the Fourth
Hearing. During the Fourth Hearing the attitude changed Into a more conciliatory tone,
however prejudice remained. In violation of the law no notice of the pretrial's new

I

agenda was served in advance electronic or otherwise, the judge had decided to rule on
a Motion submitted by the Defendant on 06/29/2020 (see ExhJMtl Case Docket).
Assuming that journalization in the case docket is notice, a reasonable period is required
4

(s) Wael lasheen

i
I

I
I
I
i

by law. A Notice Is 'An elementary and fundamental requirement of due process in any

i

proceeding which is to be accorded finality is notice reasonably calculated, under all the
circumstances, to apprise Interested parties of the pendency of the action and afford
them an opportunity to present their objections. See Mullane v. Central Hanover Bank &
Trust Co., 339 U.S. 306,314 (1950). See also Richards v. Jefferson County, 517 U.S. 793
(1996). In addition, notice must be sufficient to enable the recipient to determine what
Is being proposed and what he must do to prevent the deprivation of his interest. See
Goldberg v. Kelly, 397 U.S. 254,267-68 (1970). Thus, the notice of hearing and the
opportunity to be heard mist be granted at a meaningful time and in a meaningful
manner. See Armstrong v. Manzo, 380 U.S. 545,552 (1965).' These actions undermine
the defendant's rights to due process and reflects a greater pattern of bias and
prejudice.
l

I
I
i
i

5. The Judge scheduled a pretrial hearing on 7/28/2020 for 8/27/2020 for 'Motion to
Dismiss Agreement' (Exhibltl CASE DOCKET). However, in a separate judgement entry

!

(Exhiblt6: Judgement Entry) Judge Gold refuses to treat the motion as a request to

I

terminate the agreement and Instead labels It as a motion to show cause, as the

l

Plaintiffs Counsel suggested during the hearing. The circumstance regarding this motion
and the failure of the court to make proper notice is discussed in more details in the
section 4.
6. Judge Gold has scheduled a hearing on 8/27/2020 for 'Motion to Dismiss Agreement*
(Exhibltl CASE DOCKET) Judge Gold insists on wrongly relabeling, prejudging, and
I
considering that a resolution to this motion has been reached (Exhibft6 Judgement

s
(s) Wael lasheen

I
I

!

!
I

Entry). This renders the Judge biased and any hope of a fair hearing let alone fair

I

judgment Impossible. Considering the Judge Gold's conviction that this motion is
resolved It is safe to assume that reason for scheduling this hearing is to intimidate the
Defendant into withdrawing the motion and denying his due process.
7. It is worthwhile to mention that the PlaintHf s Counsel seem to wield great influence
over the court. The Defendant submitted a motion to release EX PARTE communication.
that was stricken from the record (Exhlbit6: Judgement Entry). Judge requires
explanation or support for this motion. Court Rule S states "No attorney or party shall
discuss the merits of any case either orally or In writing, with any judge or magistrate
presiding over the matte without all legal counsel of record or self-represented parties
participating in the discussion*. It is established law and code of Judicial Conduct that all
parties be Informed of all and any ex parte communication. It b the Judge who needs to
present an explanation for withholding ex parte communication, provided that the
Judge will submit an accurate recount of All communication.
8. The Defendant submitted a motion to request a conflict of interest statement from the
i

I

director of family evaluation services. I had spoken to her over the phone, she was very
condescending and seemed to know details which can not be gleaned from records
readily available online. It was safe to assume that she was contacted with either the
Judge or the Plaintiffs Counsel in which case she would not perform/supervise an
impartial service.
9. During communication with Judge's Bailiff and Scheduler I found them unresponsive.
and any communication seemed to be readily transmitted to the Plaintiffs Counsel.

i

I
I

6
(s) Wael Lasheen

CONCLUSION
28U.S. Code § 455 embodies an < ibjective standard. The test is whether an objective,
disinterested, lay observer fully informed of the facts underlying the grounds on which recusal
was sought would entertain a significant doubt about the judge's impartiality. In this case, the
"appearance of partiality" is app; irent to a reasonable person. From lack of hearing transcripts,
prejudging the case, improper h< aring notice, threats and intimidation, concealing ex parte
communication and denying due process. All these factors cause the Defendant, and would
cause a casual observer, to reasonably question the partiality of the Court This motion should
be granted.

7
I

I
I
i

i

I

(s) Wael Lasheen

I

I

I
i

Respectfully Submitted,

Sworn to, or affirmed, and subs ribed In my presence this \°i

I
I

day of

jsCvao.

m
Signature

WAELLASHEEN PROSE
DEFENDANT
I

PO BOX 20 2SSS

i

I
i

I
I
I

SHAKER HEIGHTS, OH 44120
Tel: 216 414 8759
Email: WAEUASHEEN10PROTONMIAL.COM

l

I
I

. SMBwmcmty
■J'jAtffic.SMiHeSto
utlrnmius^m
•"""tor&.mt

I

I

I
I
1
I
(S) Wael Usheen
l

!
I
I

I

8

Appendix 2

I

I

I
I
I

I

I

!
J
I
I
I

UIIWTED STATES OHIO SUPREME COURT
I
SUPPLEMENT TO AFFIDAVIT OF DISQUALIFICATION

i
i

JILILASHEEN
PLAINTIFF
20422 ALMAR DR
SHAKER HEIGHTS, OH 44122

:

OHIO SC CASE No. 20-AP-068
IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
CASE NO. DR19379428

BARBARA K. ROMAN (0014607)
GRACE MICLOT (0095345)
Attorneys for Plaintiff
Meyers, Roman, FrJedberg & Lewis
28601 Chagrin Boulevard, Suite 6(0
Cleveland, Ohio 44122
Tel:
(216)831-0042
Fax: (216) 831-0542
Email: broman@meyersroman.com
gmiclot@meyersroman.com

JUDGE: ROSEMARY GRDINA GOLD
Date of The Next Scheduled Hearing:
NONE

vs.
WAEL LASHEEN PRO SE
DEFENDANT

PO BOX 20 2555

FflLI©

SHAKER HEIGHTS, OH 44120

Tel:

(216)414-8759

Email: WAELLASHEENl@PROTONMAIL.COM

AM2 6?0?0

CiiRh 0^ COURT
SUPREME COURT OF QHin

l
(s) Wael lasheen

I

The Defendant (Affiant) WAEL LASHEEN hereby moves the US OHIO SUPREME COURT to accept
this SUPPLEMENT to the Affidavit Of Disqualification filed on August 19th 2020 to disqualify the
I
l

i

I

Honorable Judge ROSEMARY 6RDINA GOLD (Judge Gold) from presiding over CASE NO.
DR19379428 In The Court Of Common Pleas Division Of Domestic Relations Cuyahoga County,
Ohio, because of Bias and Prejudice.

SUPPLEMENT TO EVIDENCE / LAW

i

1. Supplement to Section 3. The general rule is that remarks a judge makes in the course of

I
ongoing judicial proceedings, remarks that are in the nature of reactions to what the
I
judge has observed, do not warrant disqualification. The US Supreme Court in Liteky v.
United States added, however, that "(i]t is wrong in theory, though it may not be too
I

l

far off the mark as a practical matter,0 to say that disqualification for bias requires an
extrajudicial source. Rather, an extrajudicial source "is the only common basis (for
disqualification] but not the exclusive one." The Court referred to two different
scenarios when disqualification follows from remarks made during judicial proceedings:

l

when the remarks reveal an extrajudicial bias, and when the remarks reveal an
excessive bias arising from information acquired during judicial proceedings.
The Court took pains to emphasize that courtroom bias—one that arises from what the
judge learns in the courtroom—may also warrant disqualification:
"A favorable or unfavorable predisposition can also deserve to be characterized as
"bias" or "prejudice* because, even though it springs from the facts adduced or the

2
(s) Wael lasheen

I

events occurring at trial, t is so extreme as to display dear inability to render fair
judgment."
In a case similar to ours where the Judge went on a tirade, in Unites States v. Whitman,
209 F.3d 619 (6th Cir. 20C 0) the Sixth Circuit remanded the sentencing of a criminal
defendant to a different t rial judgeafterthe’original judge engaged irTa "lengthy—-----harangue" of the defense attorney that "had the unfortunate effect of creating the
impression that the impai tial administration of the law was not his primary concern."
Judge Gold has unequivocally dedared "moneys from family is a personal loan" and
then set off to justify that position. In United States v. Antar, 53 F.3d 568 (3d Cir. 1995)
the trial judge commented during a sentencing hearing on the amount of restitution he
might award: "My object In this case from day one has always been to get back to the
public that which was taken from it as a result of the fraudulent activities of this
defendant and others." The Third Circuit held that the remark reflected a mindset
requiring disqualification: ffTJhis is a case where the district judge, in stark, plain and
unambiguous language, told the parties that his goal in the criminal case, from the
beginning, was something other than what it should have been and, indeed, was
improper.... It is difficult to imagine a starker example of when opinions formed during
the course of judicial proceedings display a high degree of antagonism against a criminal
defendant. After all, the best way to effectuate the district judge's goal would have
been to ensure that the government got as free a road as possible towards a conviction.
which then would give the judge the requisite leverage to order a large amount of
restitution" The court noted the trial judge's reputation for fairness, and acknowledged

3
(s) Wael lasheen

!'
J
i

I
the perils of focusing on one sentence out of volumes of transcripts. However, "In
i
i

determining whether a ju ige had the duty to disqualify him or herself, our focus must
be on the reaction of the easonable observer, if there is an appearance of partiality,

i

that ends the matter.1'

i

+

Similarty,-)n United States v-Franco-Quillen.-lSSFrApp'x 716 (10th Girr2006|the

I
district judge withdrew the defendant's guilty plea and set the matter over for trial after
the defendant objected tc certain information in the presentence report. In the course
i

I

of the hearing, the judge said, *1 will not put up with this from these Hispanics or
anybody else, any other d< sfendants"; and again, "I'm not putting up with this. I've got

I

1

another case involving a Hispanic defendant who came in here and told me that he

I

understood what was going on and that everything was fine and now I've got a 2255
i
i

from him saying he can't speak English. And he is lying because he told me he could."
The Tenth Circuit reversed the conviction and remanded the case for reassignment to a

i

I
different judge, with the explanation, "The judge's statements on the record would
cause a reasonable person to harbor doubts about his impartiality, without regard to

l
I

whether the judge actually harbored bias against Franco-Guillen on account of his
Hispanic heritage.
2.

Supplement to Section 5. It is noteworthy that the "Motion to Dismiss Agreement" was
filed on 06/29/2020 the same day as the Third Hearing that was interrupted, and three
days before the Fourth Hearing that was scheduled as a continuation on 07/03/2020.
Only the Judge could have ordered Hearing of said motion unless there was ex parte
communication between Opposing Counsel and the Court that the Defendant was not

I

4
(s) Wsel lasheen

I

I

privy to and was not disclosed, ultimately It is the Judge's responsibility regardless of
how it came about. Holding the hearing for said motion gave the Plaintiff procedural.
and substantive advantages especially that the Defendant Is not a lawyer and no
i

I

reasonable person could assume that he will be ready without notice or a day's notice,
unless the purpose was to rule in the Plaintiffs favor.
3. Supplement to Section 6. The judge's statements on the record (Exhibit6 Judgement
Entry), that said motion is resolved and that it is a motion to show cause rather than to
terminate the agreement, would cause a reasonable person to harbor doubts about
their impartiality, without regard to whether the judge actually harbored bias against
the Defendant, if the Judge is forced to rehear the motion.
4. Supplement to Section 7. By withholding ex parte communications and requiring
"evidence or support* for their release Judge Gold is in violation of Ohio Supreme Court
Rules of Conduct Rule 2.9 (B) "if a judge receives an unauthorized ex parte
communication bearing upon the substance of a matter, the judge shall make provision
promptly to notify the parties of the substance of the communication and provide the
parties with an opportunity to respond* and potentially Rule 2.9 (C) "A judge shall not
investigate facts in a matter independently, and shall consider only the evidence
presented and any facts that may properly be judicially noticed." Assuming such
communications had no bearing on the hearings, there is no way to know, it remains
common practice if not a requirement in some jurisdiction to disclose them. Given the
inherent rights of the Defendant to such communication to protect his due process and
the gravity of the consequences from such a request striking the motion from the

5
(s) Wael lasheen

1

records reflects a measure of animus, prejudice, and bias that would drive a lay observer
to suspect foul play even if none exists.
I
5. Supplement to Section 8. This motion too was stricken from the record (Exhibit6:
Judgement Entry).
6. Supplement to Section 9. I found the behavior of the scheduler especially troubling: she
would not schedule heari lgs on my request only on Plaintiffs Counsel request and at
their convenience, she would not answer the Defendant’s questions (for example does
the court requires the brii if to be a certain format) decrying she cannot give legal advice,
yet she readily gives legal advice when she declares the Defendant cannot submit a brief
without sufficient time for opposing counsel to respond. Finally, she blocked the
Defendant's official email address (See Exhibit SI). So, the Defendant cannot
communicate with the set edular on his case.
7. Supplement to Conclusion: The defendant submitted several arguments, each of which
individually merits disqual fications as similar cases have been ruled on by the US
Supreme Court and several Circuit Courts as presented. If no singular argument rises
enough to the standard of bias and prejudice, then a reasonable focus must be on the
reaction of the reasonable observer if all the arguments are taken collectively, indeed it
is unreasonable to assume that a series of events just happens to favor the Plaintiff and
be biased against the Defendant by pure chance in a court of law where all events are
controlled and actions deliberate. If there Is an appearance of partiality, that ends the
matter.

6
I

i

I
I

I

(s) Wad Lasheen

ri
•i
i

i
l
i

Respectfully Submitted,

i
Swom to, or affirmed, and subsci Ibed in my presence this ?

!
I

I
I

I
i

!
I

Signature

I

WAEL LASHEEN PROSE

I

PO BOX 20 2555

I

SHAKER HEIGHTS, OH 44120

Tel:
I
I

(216)414-8759

Email: WAELLASHEENl<S>PROTONMAILCOM

I
I
I

7
(s) Wael Lasheen

day of

/h^,

Appendix 3

i

I

I

I

I

I

I
I

I

I
I
I

I

I

.1

I

|!

I
.1

I

DR 19379428

i

!
I

,COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO

i

JILL LASHEEN,

Case No. DR19 379428

Plaintiff,

JUDGE ROSEMARY GRDINA GOLD

a8Br§Ef& v:

v.

I
I

WAEL LASHEEN,
Defendant.

I

AUG 2 4 2020
CUYAHOGA COUNTY
CLERK OF COURTS

Defendant having filed an Affidavit of Disqualification with the Clerk of the Supreme
Court of Ohio seeking to disqualify the undersigned Judge from this matter, and puisuant to the
Supreme Court’s Entry of Augi ist 20,2020,

I

I

JUDGMENT ENTRY

l

IT IS ORDERED that 10 further action will be taken on this case until the Chief Justice
has ruled on the Affidavit, and my scheduled events are hereby cancelled.

JUDGE

cc:
I

Bailiff
Scheduler
Family Evaluation Services
Plaintiff
Plaintiffs counsel
Defendant

INA GOLD

RECEIVED FOR FILING

I

AUli dAim
By:.

I
HI 10 (Rcvind 0*2014)

I

I

I

I

*I»E4

— Deputy

I

I

i
!
I

I

I
i

i

I
I
I

I

i

Appendix 4

Supreme Court of 0 >tfio*uo 2 0 mo
CLERK OF COURT
SUPREME COURT OF OHIO
In re Disqualification of fion. Rosemary Ordina
Gold

Case No. 20-AP-068
i

ENTRY

ON AFFIDAVIT OF DISQUALIFICATION in
JUl Lasheen v. Wael Lasheen, Cuyahoga
County Court of Common Pleas, Domestic
Relations Division, Case No. DR-19-378428

Pursuant to R.C. 2701.03 and S.CtPrac.R. 21.01 through 21.04, the Clerk of the
Supreme Court accepted | for filing an affidavit seeking to disqualify Judge Rosemary
Grdina Gold from the fol owing matter: Jill Lasheen v. Wael Lasheen, Cuyahoga County
Court of Common Pleas, domestic Relations Division, Case No. DR-19-378428.

!
I
1
1

Except as providsd in R.C. 2701.03(D)(2) through (4), Judge Grdina Gold is
deprived of any authority to preside in the proceeding until the Chief Justice rules on the
affidavit. Judge Grdina Gold is requested to file a response to the affidavit in accordance
with S.Ct.Prac.R. 21.01 ajtd 21.02 within 21 days of the date ofthis entry. The judge may
submit the response in letter, pleading, or affidavit format. Upon receipt of the judge's
response, the Chief Justioe will review the matter and render a written decision on the
affidavit.
Affidavit-of-disqualification files are public records, and unless sealed or
confidential, a copy of any materials in the files will be provided to any person who so
requests.

J
Maureen O’Connor
Chief Justice
1

I

I

1
I

.I

i

i

i
i

i

l

i

i

i

I
I

I

I
I
I
i

i

Appendix 5

I

EDP

I

I
I

I

COURT
DIVISION OF DOMESTR^RfflUHin
CUYAHOGA COUNTY, OHIO '

i
i

Mall617?

i

JELL LASHEEN,

i
i
i
I

Plaintiff,

Case No. DR19 379428
ORIGINAL:

JUDGE ROSEMARY GRDINA GOLD

COURT USE CHY

v.
WAEL LASHEEN,

I

Defendant.

$EP - I 2020

JUDGMENT ENTRY

Cl YAHOGA COUNTY
C
OF COUNTS

i

I
i

This matte is before the Court upon the Affidavit of Disqualification filed by Defendant
against this Judge on August 20, 2020. Without admitting any fault, bias, prejudice, or lack of
impartiality on the part of the a: signed judge, Judge Rosemary Grdina Gold hereby voluntarily
removes herself from the above captioned case.
The Complaint was filed :ember 3, 2019. The date by which it must be resolved,
pursuant to the Supreme Courtlcas! guidelines, is June 25, 2021. The remaining 297 days for
conclusion of this case shall be i rani ferred with die case to die newly assigned judge.
Therefore, to preclude a ly i ppearance of impropriety or conflict of interest, the ««ignmt
Judge Rosemary Grdina Gold hi :ret y voluntarily removes herself from the above-captioned case.
The case shall be reassigned at random to another Judge of this Court, pursuant to Local Rule
2<AX2)(b).
IT IS SO ORDERED.

JUDG1

naiveo m nune
0 1 2020

i
I
I

By:

SwKgssr

yjT

H110 (ReviiM<04/20l4)

°epti|y

!Y GRDINA GOLD

;
I
•I
I

!
:

Appendix 6

i

i

i
i

;

I

I

I
I
I

I

I

[

I
I
I

I

I

I
I
I

I

I

I

i

I

I

COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CllYAHOGA COUNTY, OHIO

i

JILL LASHEEN,

Case No. DR 19 379428

Plaintiff.

JUDGE LESLIE ANN CELEBREZZE

v.

JUDGMENT ENTRY

WAEL LASHEEN,
Defendant.
To preclude any impropriety or the appearance of a conflict of interest on the part of the
assigned Judge. ROSEMARY GRDINA GOLD voluntarily removes from the above captioned
case. This case is hereby reassigned to Judge TONYA R. JONES (via electronic judge roll) to
resolve all pending and future issues.

JUDGE LESLIE ANN CELEBREZZE
ADMINISTRATIVE JUDGE
Copies to: Grace M. Miclot, Counsel for Plaintiff’
Pro Se. Counsel for Defen Jant
Court File

i

I

i

*
0204 (revised 01/2018)
I
I
I

I

RECEIVED FOR FILING
09/04/2020 08:38:48 t
NAILAH K. BYRD, CLERK
Docket ID. 114356799

I
I

Appendix 7

i

i

I

!

I
I

I
I
I
I

I

I
I
I

I
i

RE: 20-AP-68 [EXTERNAL]

i

Received:

Tuesday, September 8,2020 10:57 AM

!

From: Patterson, Kathryn Kathryn.Patte 'son@sc.ohlo.gov
To: Wael Lasheen Waellasheen1@protoimail.com

I
I

I

That information isn’t recorded. AH I can tell you is that, based on the time our office received the entry, it was
probably some time around 11 AM.
1
"
----- ----------

I

Kathryn Patterson | Assistant Deputy Clark j Supreme Court of Ohio

'V?

65 South Front Street • Columbus, Ohio 43215-3431
614.387.9543 (lelsptone) ■ 614.387.9539 (fax)
Kathivn:Pa»oraoniS>fic oftrooov
www.Bupremecoun Phto.oov

i
i

I

From: Wael Lasheen <Waellasheen1@protonmail.com>
Sent: Tuesday, September 8,2020 10:37 AM
To: Patterson, Kathryn <Kathryn.Pattersoli@sc.ohio.gov>
Subject: RE: 20-AP-68 [EXTERNAL]

I
i

I

I need to know what time the Clerk of the Supreme Court Filed the order.
How can I find out?

i

Sent with ProtonMail Secure Email.

------Original Message------On Tuesday. September 8. 202010:33 AM, Patterson, Kathryn <Kathrvn.Patterson@sc ohio.aov> wrote:

A time of day is not listed on the docket

Kathryn Patterson J Assistant Dsputy Clark 11 upreme Court of Ohio

i

I
jf
I

T

65 South Front Street • Columbus. Ohio 45215-3431
•

I

*■

4*'

1

614.367.8543 (telephone) ■ 614.367.8539 (lax)

I

Kathryn Patterscrrffi>6C.cnia.oov
www sumemecourt ohto.oow

i
i

i
i
From: Wael Lasheen <Waellasheen 1 @protonmail. com>
I
I

Sent: Tuesday, September 8,2020 10:2V AM
To: Patterson, Kathryn <Kathrvn.Patterson@sc.ohio.oov>
Subject: RE: 20-AP-68 [EXTERNAL)

I
I
Thank you what time of day was it filed, 1I0AM, 11 AM etc?

;
Sent with ProtonMail Secure Email.

........ Original Message-------On Tuesday, September 8,2020 10.24 AM, Patterson, Kathryn <Kathryn.Patterson@sc.ohio.qov> wrote:

I

Good morning,

A PDF containing the Chief Justice's judgment entry and decision is attached.
I
Kathryn

Kathryn Pattereon | Assistant Deputy Clerk | Supreme Court of Ohio

ij

65 South Front Street ■ Columbus. Ohio 43215-3431
614 387.8543 (telephone) ■ 614.387.9539 (fax)

www SLgyemeaxiri.ohio.oov

(

I

I

I

I
i

From: Wael Lasheen <WaellasheenHEiprotonmail.com>
Sent: Tuesday, September 8,2020 10:21 AM

i

I

To: Patterson. Kathryn <Kathrvn.Patter son@sc.ohio aov>
Subject: Re: 20-AP-68 [EXTERNAL]

I

Hi Kathryn,
I was told that the Chief Justice has ruled on my Affidavit 20-AP-68
Would you kindly email me a copy
and include the date and time of filing, or email me the date and time of filing

I

Thank you

i
l

Wael Lasheen

I

I

Sent with ProtonMail Secure Email.

l

------Original Message------I
I

On Friday, September 4, 2020 4:53 PM Patterson, Kathryn <KathrvnPatterson(S)scohifr pov> wrote:

I

A file-stamped copy of the supplemental affidavit is attached.

l
I

I

I

i

Kathryn Patterson | Anlatum Deputy Clerfc (Supreme Court of Ohio

i .7

65 South Front Street • Columbus, Ohio 43215-3*31

I
614.367.6543 (telephone) ■ 614.3S7.6539 (fax)

i
wvyw.sutyemecoun Ohio oov

i
i

i

I

i

CAUTION: This email originated from outside of the court. The actual "from" email address is
KVaellasheen 1 @protonmall.com. DO NOT click links or open attachments unless you recognize the
sender and know the content is safe.

J
I

Appendix 8
i

i
i

i

i

I

l
i

I

i

i

l

i

!

i

!l

I

Print
I

CASE INFORMATION

!

Docket Information
Filing Date Side Type Description
Image
09/04/20
PI SR JUDGMENT ENT IY(42483509) SENT BY REGULAR MAIL SERVICE. TO: JILL
LASHEEN 20422 ALMAR DRIVE SHAKER HEIGHTS, OH 44122
D1 SR JUDGMENT ENTRY(42483508) SENT BY REGULAR MAIL SERVICE. TO: WAEL
09/04/20
LASHEEN 20422 ALMAR DRIVE SHAKER HEIGHTS, OH 44122 CLEVELAND, OH
44122-0000
I
09/04/20
Dt SR JUDGMENT ENTRY(42483S 10) SENT BY EMAIL. TO: WAEL LASHEEN
WAELLASHEENl@PROTONMAIL.COM
09/04/20
N/A SR JUDGMENT ENT}IY(42483507) SENT BY EMAIL. TO: BARBARA K ROMAN
JRAY@MEYERSROMAN.COM
09/04/20
N/A SR JUDGMENT ENTOY(42483506) SENT BY EMAIL. TO: BARBARA K ROMAN
BROMAN@MEY IRSROMAN.COM
09/04/20
PI SR JUDGMENT ENT 0/(42483505) SENT BY EMAIL. TO: GRACE MARIE MICLOT
GRACEMlCLOT@GMAIL.COM
N/A JE JUDGE REASSIGjMMENT JE
09/04/20
09/01/20

08/25/20

08/24/20
08/24/20
08/24/20
08/24/20
08/24/20

I

08/24/20
I
i

I
I
l

08/24/20

A

i

08/21/20
i

I

!
I

08/14/20

N/A JE

IT IS ORDERED THAT TO PRECLUDE ANY APPEARANCE OF IMPROPRIETY OR
CONFLICT OF INTEREST, THE ASSIGNED JUDGE ROSEMARY GRDINA GOLD,
VOLUNTARILY REMOVES HERSELF FROM THE ABOVE CAPTIONED CASE.
THE CASE SHALL BE REASSIGNED AT RANDOM TO ANOTHER JUDGE OF THIS
COURT.. O.S J. NOTICE ISSUED
D1 CM ON AFFIDAVIT 0|F DISQUALIFICATION IN JILL LASHEEN V WAEL LASHEEN,
CUYAHOGA COUNTY COURT OF COMMON PLEAS, DOMESTIC RELATIONS
DIVISION
I
N/A SR HEARING CANCELED, NOTICE(S) SENT
N/A SR HEARING CANCELED, NOTICE(S) SENT
N/A SR HEARING CANCELED, NOTTCE(S) SENT
N/A SR HEARING CANCELED, NOTICE(S) SENT
N/A SC HEARING SET F<j)R 11/18/2020 AT 10:00 BEFORE JUDGE ROSEMARY GRDINA
GOLD HAS BEEN CANCELED.
N/A SC HEARING SET F&R 08/27/2020 AT 10:30 BEFORE JUDGE ROSEMARY GRDINA
GOLD HAS BEEN CANCELED. MO.# 434094 FILED ON 08/03/2020 MOTION TO
COMPEL DISCOVERY MOJ 433196 FILED ON 06/29/2020 MOTION TO DISMISS
AGREEMENT
N/A JE DEFT HAVING FILED AN AFFIDAVIT OF DISQUALIFICATION WITH THE CLERK
OF THE SUPREME COURT OF OHIO SEEKING TO DISQUALIFY THE
UNDERSIGNED JUDGE FROM THIS MATTER, AND PURSUANT TO THE
SUPREME COURTS ENTRY OF AUGUST 20,2020, IT IS ORDERED THAT NO
FURTHER ACTION WILL BE TAKEN ON THIS CASE UNTIL THE CHIEF JUSTICE
HAS RULED ON (THE AFFIDAVIT, AND ANY SCHEDULED EVENTS ARE
HEREBY CANCELLED.. O.SJ. NOTICE ISSUED
D1 MO Dl WAEL LASHEEN EMERGENCY MOTION TO DISMISS ORDER FOR FAMILY
EVALUATION SERVICES PRO SE 9999999
N/A JE IT IS ORDERED THAT DEFT MOTION TO STAY FAMILY EVALUATION ( #
434093) IS DENIED. IT IS FURTHER ORDERED THAT DEFT MOTION TO
REQUEST CONFLICT OF INTEREST STATEMENTS( #434312) AND MOTION TO

08/12/20
08/11/20

RELEASE EX PARTE COMMUNICATION #434314)ARE STRICKEN... O.S.J.
NOTICE ISSUED
D1 NT NOTICE OF SERVICE OF DISCOVERY FILED D1WAELLASHEEN, ATTORNEY
PRO SE 9999999 IjJOTICE OF SERVICE OF DISCOVERY ANSWERS TO
PLAINTIFFS REQUEST FOR PRODUCTION OF DOCUMENTS AND
INTERROGATORIES
N/A SR MOTIONS) ADDED TO HEARING, NOTICE(S) SENT
D1 MO MOTION TO/FOr! D1 WAEL LASHEEN

08/11/20

D1 MO MOTION TO/FOR D1 WAEL LASHEEN CONFLICT OF INTEREST

08/13/20

08/04/20
08/04/20

08/03/20
08/03/20
08/03/20
08/03/20
08/03/20
08/03/20
08/03/20
08/03/20

07/31/20
07/29/20
07/29/20
07/29/20
07/29/20
07/28/20
07/28/20
07/01/20
07/01/20
06/30/20

06/29/20
06/26/20
06/26/20
I
I
i
i
i

PI SR JUDGMENT ENTRY(42244788) SENT BY REGULAR MAIL SERVICE. TO: JILL
LASHEEN 20422 ATMAR DRIVE SHAKER HEIGHTS, OH 44122
PI NT NOTICE OF SERVICE OF DISCOVERY FILED PI JILL LASHEEN NOTICE OF
SERVICE OF PLAINTIFFS RESPONSES TO DEFENDANTS REQUEST FOR
PRODUCTION OF DOCUMENTS AND PLAINTIFFS ANSWERS TO
DEFENDANTS FIRST SET OF INTERROGATORIES PRROPOUNDED ON
PLAINTIFF
D1 MO MOTION TO STAY ORDER Dl WAEL LASHEEN MOTION TO STAY FAMILY
EVALUATION
Dl MO Dl WAEL LASHEEN MOTION TO COMPEL DISCOVERY PRO SE 9999999, /'FA
MOTION FOR ORDER COMPELLING DISCOVERY
Dl SR JUDGMENT ENTRY(42244787) SENT BY EMAIL. TO: WAEL LASHEEN
WAELLASHEENll@PROTONMAIL.COM
PI SR JUDGMENT ENTRY(42244786) SENT BY EMAIL. TO: GRACE MARIE MICLOT
JRAY@MEYERSROMAN.COM
PI SR JUDGMENT ENTRY(42244785) SENT BY EMAIL. TO: GRACE MARIE MICLOT
GMICLOT@MEYERSROMAN.COM
N/A SR JUDGMENT ENTRY(42244784) SENT BY EMAIL. TO: BARBARA K ROMAN
JRAY@MEYERSROMAN.COM
i
N/A SR JUDGMENT ENTRY(42244783) SENT BY EMAIL. TO : BARBARA K ROMAN
BROMAN@MEYERSROMAN.COM
N/A JE ORDER FAMILY ^VALUATION. IT IS ORDERED THAT THIS MATTER BE
REFERRED TO THE COURTS FAMILY EVALUATION SERVICESFOR A
FORENSIC EVALUATION PURSUANT TO R.C. 3109.04(C) AND THE LOCAL
RULES OF THE COURT OF COMMON PLEAS OF CUYAHOGA COUNTY,
DOMESTIC RELATIONS DIVISION AS TO: ALLOCATION OF PARENTAL RIGHTS
AND RESPONSIBILITIES.
IT IS SO ORDERED. O.S.J. NOTICE ISSUED
i
Dl NT NOTICE OF SERVICE OF ANSWERS TO DEFENDANTS REQUEST FILED
NOTICE OF SERVICE
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SR HEARING SCHEDULED,
NOTICE(S) SENT
I
N/A SR HEARING SCHEDULED, NOTlCE(S) SENT
N/A SR HEARING SCHEDULED, NOTTCE(S) SENT
N/A SC PRETRIAL SET FOR 11 /18/2020 AT 10:00 BEFORE JUDGE ROSEMARY GRDINA
GOLD.
N/A SC PRETRIAL SET FOR 08/27/2020 AT 10:30 BEFORE JUDGE ROSEMARY GRDINA
GOLD. MOJ 433196 FILED ON 06/29/2020 MOTION TO DISMISS AGREEMENT
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SR HEARING SCHEDULED, NOTICE(S) SENT
N/A SC PRETRIAL SET FOR 07/02/2020 AT 09JO IN CRTRM IA BEFORE JUDGE
ROSEMARY GRDINA GOLD. MOJ 433196 FILED ON 06/29/2020 MOTION TO
DISMISS AGREEMENT
Dl MO MOTION TO/FOR Dl WAEL LASHEEN MOTION TO DISMISS AGREEMENT
Dl MO MOTION TO/FOR Dl WAEL LASHEEN DEFENDANTS FIRST SET OF
INTERROGATORIES PROPOUNDED UPON PLANTIFF 6-26-20
Dl MO

06/19/20
06/19/20
06/18/20

N/ASR
N/ASR
N/A SC

06/12/20

N/A JE

05/28/20

D1 MO
N/A SC

05/27/20
05/12/20
05/12/20

ROSEMARY GRDINA GOLD HAS BEEN CANCELED.
N/ASR HEARING SCHEDULED, NOTICE(S) SENT

02/28/20

PENDING ISSUER SET FOR 06/08/2020 AT 11:00 IN CRTRM IABEFORE JUDGE
ROSEMARY GRDINA GOLD.
N/A JE AGREED JUDGNffiNT ENTRY PLAINTIFF AND DEFENDANT, BY AND
THROUGH THEIR UNDERSIGNED COUNSEL HAVE ENTERED INTO THE
BELOW AGREEMENT AS IT RELATES TO INTERIM ISSUED COMMENCING
APRIL 12,2020 EXCEPT AS OTHERWISE SET FORTH HEREIN. THE COURT
HEREBY ADOPTS THE PARTIES AGREEMENT. IT IS ORDERED, THAT ALL
REMAINING ORDERS NOT MODIFIED HEREIN SHALL REMAIN IN FULL
FORCE AND EFFECT. O. S. J. NOTICE ISSUED
PI NT NOTICE OF SERVICE OF DISCOVERY FILED PI JILL LASHEEN NOTICE OF
SERVICE OF PLAINTIFFS REQUEST FOR PRODUCTION OF DOCUMENTS
PROPOUNDED uk)N DEFENDANT AND PLAINTIFFS FIRST SET OF
INTERROGATORIES PROPOUNDED ON DEFENDANT
Dl OT Dl WAEL LASHEEN CERTIFICATE OF ATTENDANCE-PARENTING SEMINAR

02/19/20

N/A JE

02/19/20

PI NT

02/13/20
02/13/20
02/13/20

N/ASR
N/A SR
N/A SC

02/13/20

N/A SC

01/29/20

Dl OT

01/22/20

PI AF

01/08/20
01/07/20
01/07/20

N/ASR
N/A SR
N/A SC

01/07/20

PI AN

12/27/19
12/27/19

Dl SF
Dl AN

12/07/19

N/A SR

12/03/19
12/03/19
12/03/19

N/A SR
Dl CS
Dl SR

04/23/20

03/06/20

N/A SC

i

I

1
I

MOTION FOR DISCOVERY SANCTIONS FILED D1 WAEL LASHEEN
DEFENDANTS RjEQUEST FOR PRODUCTION OF DOCUMENTS 6-26*20
HEARING SCHEDULED, NOTICE(S) SENT
HEARING SCHEDULED, NOTICE(S) SENT
PRETRIAL SET FpR 06/29/2020 AT 02:00 IN CRTRM 1A BEFORE JUDGE
ROSEMARY GRDINA GOLD.
IT IS ORDERED THAT LISA KRAMER'S MOTION TO WITHDRAW AS ATTORNEY
OF RECORD IS GRANTED OSJ. NOTICE ISSUED
Dl WAEL LASHEEN MOTION TO WITHDRAW AS ATTORNEY OF RECORD
HEARING SET F<j)R 06/08/2020 AT 11:00 IN CRTRM 1A BEFORE JUDGE

AGREED JUDGMENT ENTRY RE: ENGAGING IN COUNSELING FOR THE
CHILDREN... COSTS ADJUDGED AGAINST PASSED TO FINAL HEARING O. S. J.
NOTICE ISSUED I
PARENTING CERTIFICATE FILED PI JILL LASHEEN NOTICE OF ATTENDANCE
AT PARENTING SEMINAR
HEARING SCHEDULED, NOTTCE(S) SENT
HEARING SCHEDULED, NOTICE(S) SENT
PRETRIAL SET FOR 05/11/2020 AT 11:00 IN CRTRM IABEFORE JUDGE
ROSEMARY GRDINA GOLD.
PRETRIAL SET FOR 02/13/2020 AT 11:00 IN CRTRM IABEFORE MAGISTRATE
JASON P. PARKER.
Dl WAEL LASHEEN FINANCIAL DISCLOSURE STATEMENT WITH AFFIDAVIT
OF PROPERTY, INCOME AND EXPENSES
AFFIDAVIT OF INCOME AND EXPENSES FILED PI JILL LASHEEN PLAINTIFFS
FINANCIAL DISCLOSURE STATEMENT
HEARING SCHEDULED, NOTICE(S) SENT
HEARING SCHEDULED, NOHCE(S) SENT
PRETRIAL SET FOR 02/13/2020 AT 11:00 IN CRTRM IABEFORE JUDGE
ROSEMARY GRDINA GOLD.
REPLY TO COUNTERCLAIM FILED PI JILL LASHEEN PLAINTIFF'S REPLY TO
COUNTERCLAIM
DEPOSIT AMOUNT PAID
ANSWER TO COMPLAINT AND COUNTERCLAIM (NO CHILDREN) $200 FILED,,
ATTORNEY LISa|r KRAEMER(0031338)
FEDEX RECEIPT'NO. 40487674 DELIVERED BY FEDEX 12/06/2019
LASHEEN/WAEii PROCESSED BY COC 12/07/2019.
SUMMONS E-FUJE COPY COST
WRIT FEE

a,
181

!
•!

i

!
l
I

I
I

I
l
I

I
i
]
I

i

I
I
I

I

I

I
I

!
I

SUMS COMPLAINT(40487674) SENT BY FEDERAL EXPRESS. TO: WAEL
LA SHEEN 20422 ALMAR DRIVE SHAKER HEIGHTS, OH 44122
12/03/19
N/A JE MUTUAL RESTRAINING ORDER ISSUED TO PLAINTIFF AND DEFENDANT
PURSUANT TO LOCAL RULE 24
12/03/19
N/A JE MANDATORY DISCLOSURE ORDER ISSUED TO PLAINTIFF AND DEFENDANT
PURSUANT TO LOCAL RULE 14 REV 8-13-2018
12/03/19
N/A SF JUDGE ROSEMARY GEDINA GOLD ASSIGNED (RANDOM)
12/03/19
PI SF LEGAL RESEARCH
12/03/19
PI SF LEGAL NEWS
12/03/19
PI SF LEGAL AID
12/03/19
PI SF DOMESTIC VIOLENCE FUND
PI SF DIVORCE DECREE FEE FUND
12/03/19
12/03/19
PI SF CLERK COMPUTER FEE
PI SF CLERKS FEES I
12/03/19
12/03/19
PI SF DEPOSIT AMOUJjJT PAID GRACE MARIE MICLOT
12/03/19
N/A SF CASE FILED: COMPLAINT, PETITION OR APPLICATION FOR, HEALTH
INSURANCE AFFIDAVIT, PARENTING PROCEEDING AFFIDAVIT, PARENTING
PROCEEDING AKF. WIV-D APPL., SERVICE REQUEST
Copyright C2020 PROWARE. All Rights Reserved. 1.1.723_722

-'t

Appendix 9

i

i

I
i
i

i
i

l

I
I
I
i

i
i

i

I
i

On Wednesday, September 2,2020, Wael Lasheen <lasheenw2@gmail.com> wrote:
i
l
i
i

Good Morning Barbara,
Thats an unfortunate turn of event;
I will contact my ex-lawyer, Lisa Kramer,
And see if she would be willing to «>me back
Onboard. I will be in touch.
Wael
On Tuesday, September 1,2020, E arbara K. Roman <BRoman@meyersroman.com> wrote;
Grace j8 n0 lon9er affiliated with Meyers Roman. For now, I will be the legal contact on behalf
of Jill. If you have a reasonable responsive proposal to make which takes into consideration the
negotiations and terms previously presented by Jill, I will be happy to entertain a discussion to bring
this case to a conclusion.
. Sent from my iPad
> On Sep 1,2020, at 1:34 PM, Vtoel Lasheen <lasheenw2@gmaii.com> wrote
■

i

>

> Hi Grace,
> Hope all is well, it is unfbrtuna te that this divorce
> Is dragging too long
> Is there a way we can
> Return to negotiate and perhaps bring this case
> To an amicable closure that w< >uld be agreeable to
> All parties?
> Thank you
> Wael
>
>
>_
> WaelLasheen
>

Wael Lasheen

Wael Lasheen

I-

J

Exhibit 10
i
i

i

l

i

i
i

I
i

i

i

!

i

i

Wc\t ^ufrreme Court of ©ip

i

w 04 mo
CLERK OF COURT
SUPREME COURT OF OHIO

i

i

In re Disqualification of Hon. Rosemary Grdina
Gold

Supreme Court Case No. 20-AP-068
JUDGMENT ENTRY AND DECISION

I

I

On Affidavit of Disqualification in Jill Lasheen v. Wael Lasheen, Cuyahoga
County Court of Common Pleas, Domestic Relations Division,
Case No. DR-19-378428.
Defendant Wael Lasheen has filed an affidavit pursuant to R.C. 2701.03 wUng to
disqualify Judge Rosemary Grdina Gold from the above-referenced case.
Judge Grdina Gold has voluntarily recused herselffiom the matter. Therefore, the affidavit
of disqualification is dismissed as moot. The case is returned to the administrative judge of the

i

Cuyahoga County Court of Common Pleas, Domestic Relations Division, for random re­

i

assignment to another judge of that court.
I

Dated this 4th day of September, 2020.

I

k

i

sulUju

MAUREEN O’CONNOR
Chief Justice
Copies to:

Sandra H. Grosko, Clerk of the Supreme Court
Hon. Rosemary Grdina Gold
Hon. Leslie Ann Celebrezze, Administrative Judge
Nailah K. Byrd, C erk
Wael Lasheen
Jill Lasheen

j

4-#

APPENEDIX H Court’s Case Information with Administrative Judge Acting
as the Case’s Judge (Court’s Website)

i

Print

CASE INFORMATION

Summary
Case Number:
Case Title:
Case Designation:
Filing Date:
Judge:
Hearing Officer:
Room:
Next Action:
File Location:
Last Status:
Last Status Date:
Last Disposition:
Last Disposition Date:
Prayer Amount:
Court of Appeals Case:
Original Case:
Refiled Case:

DR-19-379428
JILL LASHEEN vs. WAEL LASHEEN
DIVORCE-CHILDREN
12/03/2019
LESLIE ANN CELEBREZZE
N/A
N/A
N/A
DR - COURTROOM 1A (GOLD)
ACTIVE
12/03/2019
NEWLY FILED
12/03/2019
$.00
N/A
N/A
N/A

Copyright © 2020 PROWARE. All Rights Reserved. 1.1.734a

7

APPENEDIXI 28 U.S. Code § 455

28 U.S. Code § 455 - Disqualification of justice, judge, or
magistrate judge
U.S. Code

Notes

(a)Any justice, judge, or magistrate judge pLthe United State shall
disqualify himself in any proceeding in which his impartiality might reasonably
be questioned.
(b)He shall also disqualify himself in the following circumstances:
(1)Where he has a personal bias or prejudice concerning a party, or
personal knowledge of disputed evidentiary facts concerning
the proceeding;
(2)Where in private practice he served as lawyer in the matter in
controversy, or a lawyer with whom he previously practiced law served
during such association as a lawyer concerning the matter, or the judge or
such lawyer has been a material witness concerning it;
(3)Where he has served in governmental employment and in such
capacity participated as counsel, adviser or material witness concerning
the proceeding or expressed an opinion concerning the merits of the
particular case in controversy;
(4)He knows that he, individually or as a fiduciary, or his spouse or minor
child residing in his household, has a financial interest in the subject
matter in controversy or in a party to the proceeding, or any other interest
that could be substantially affected by the outcome of the proceeding;
(5)He or his spouse, or a person within the third degree of relationship to
either of them, or the spouse of such a person:
(i)Is a party to the proceeding, or an officer, director, or trustee of a
party;
(ii)Is acting as a lawyer in the proceeding;
(iii)Is known by the judge to have an interest that could be
substantially affected by the outcome of the proceeding;
(iv)Is to the judge's knowledge likely to be a material witness in
the proceeding-

(c)A judge should inform himself about his personal and fiduciajryfinanciaI
interests, and make a reasonable effort to inform himself about the personal
financial interests of his spouse and minor children residing in his household.
(d)For the purposes of this section the following words or phrases shall have
the meaning indicated:
(1)"prgceedmg" includes pretrial, trial, appellate review, or other stages
of litigation;
(2)the degree of relationship is calculated according to the civil law
system;
(3)"fiduciary" includes such relationships as executor, administrator,
trustee, and guardian;
(4)"financial interest" means ownership of a legal or equitable interest,
however small, or a relationship as director, adviser, or other active
participant in the affairs of a party, except that:
(i)Ownership in a mutual or common investment fund that holds
securities is not a "financial interest" in such securities unless the judge
participates in the management of the fund;
(ii)An office in an educational, religious, charitable, fraternal, or civic
organization is not a "financial interest" in securities held by the
organization;
(iii)The proprietary interest of a policyholder in a mutual insurance
company, of a depositor in a mutual savings association, or a similar
proprietary interest, is a "financial interest" in the organization only if
the outcome of the proceedingcould substantially affect the value of
the interest;
(iv)Ownership of government securities is a "financial interest" in the
issuer only if the outcome of the proceeding could substantially affect
the value of the securities.
(e)No justice, judge, or magistrate judge shall accept from the parties to
the proceeding a waiver of any ground for disqualification enumerated in
subsection (b). Where the ground for disqualification arises only under
subsection (a), waiver may be accepted provided it is preceded by a full
disclosure on the record of the basis for disqualification.
(f)Notwithstanding the preceding provisions of this section, if any justice,
judge, magistrate judge, or bankruptcy judge to whom a matter has been
assigned would be disqualified, after substantial judicial time has been
devoted to the matter, because of the appearance or discovery, after the
matter was assigned to him or her, that he or she individually or as
a fiduciary, or his or her spouse or minor child residing in his or her
household, has a financial interest in a party (other than an interest that
could be substantially affected by the outcome), disqualification is not

,

V*.

required if the justice, judge, magistrate judge, bankruptcy judge, spouse or
minor child, as the case may be, divests himself or herself of the interest that
provides the grounds for the disqualification.
(June 25, 1948, ch. 646, 62 Stat. 908; Pub. L. 93-512, §1, Dec. 5, 1974, 88
Stat. 1609; Pub. L. 95-598, title II, §214(a), (b), Nov. 6, 1978, 92 Stat.
2661; Pub. l;-Yoo-702£ title X, § 1007, Nov. 19, 1988, 102 Stat. 4667; Pub. L.
101-650“ title Iii"'§ 321; Dec 1, 1990, 104 Stat. 5117.)

